<html>
<title> - Department of Defense Appropriations for Fiscal Year 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Cochran, Shelby, and Murkowski.

                      Energy Security and Research

STATEMENT OF HON. DENNIS MC GINN, ASSISTANT SECRETARY 
            OF THE NAVY, ENERGY, INSTALLATIONS AND 
            ENVIRONMENT


             opening statement of senator richard j. durbin


    Senator Durbin. Good morning. Today, the Subcommittee on 
Defense Appropriations meets to receive testimony regarding the 
operational energy programs of the Department of Defense (DOD), 
and how the Department is incorporating climate change into 
strategic planning.
    I would like to welcome our witnesses, Dennis McGinn, 
Assistant Secretary of the Navy for Energy, Installations, and 
Environment; Edward Morehouse, Jr., Acting Assistant Secretary 
of Defense for Operational Energy Plans and Programs; Dr. 
Daniel Chiu, the Deputy Assistant Secretary of Defense for 
Strategy; and Brigadier General Kenneth Lewis, Deputy Director 
of Trans-Regional Policy and Partnership Strategy on the Joint 
Staff. Thank you.
    Energy is not often the first thing that comes to mind when 
we picture our military, but it is an increasingly important 
consideration. The Department of Defense is the largest energy 
consumer in America, spending roughly $20 billion a year to 
move people and equipment, sustain missions, keep installations 
running.
    Liquid fuel use is the main driver of these costs, totaling 
an estimated 111 million barrels of oil, including 9 million 
barrels in Afghanistan alone.
    In addition to financial cost, energy limitations also 
constrain our military's ability to project power. A Marine 
Corps forward operating base lasts only as long as its energy 
supply.
    Lieutenant General James Mattis, during Operation Iraqi 
Freedom, put it another way: Unleash us from the tether of 
fuel.


                          energy saving costs


    The Office of Operational Energy Plans and Programs was 
created in 2010 to coordinate operational energy programs, 
particularly efforts to reduce demand, expand supplies, and 
lead innovative research, so that our warfighters can have 
lighter, more fuel-efficient equipment. These projects take 
many forms and are seen all around the country, and underscore 
the Department of Defense's willingness to make saving energy a 
standard operating procedure. U.S. Transportation Command, 
based at Scott Air Force Base in my home State of Illinois, is 
constantly working on the most effective, efficient ways to 
move troops and material. Researchers are hard at work reducing 
the weight and improving the performance of portable batteries 
that our soldiers carry. The Navy is participating in the 
advanced drop-in biofuels program with the goal of empowering a 
great green fleet in 2016. Ethanol and biodiesel fuel plants in 
Illinois account for over 10,000 jobs and hundreds of millions 
of dollars in payroll.
    The services are executing an increasing amount of energy 
saving performance contracts for infrastructure improvements. A 
recent contract at Rock Island Arsenal in my State promises to 
reduce energy use by 35 percent and result in a $5.3 million 
annual savings in energy and operational costs.
    Every advance we make in this area is a win. It means safer 
supply lines, less weight to hike over mountain passes, and 
increased ability to operate independently in a hostile 
environment. In an era of tight budgets, better stewardship of 
energy means there is more money for other critical defense 
priorities.
    The Department has also realized that climate change is a 
national security threat. And it is appropriate for the 
subcommittee to hear more about this risk and how it is being 
incorporated into our strategy.
    Climate change has been in the news the last few weeks. Two 
weeks ago, the U.S. Global Change program released its third 
national climate assessment, again confirming that climate 
change is an immediate threat to the United States and the 
world. Last week, it reported the collapse of the West 
Antarctic ice sheet is underway and likely irreversible.
    Last week, a group of 16 Generals and Admirals, with 
hundreds of years of military experience between them, issued a 
report entitled, ``National Security and the Threat of Climate 
Change.'' It identified a number of critical considerations.
    What will the sea level rise mean for our military 
installations operating in all 50 States, 7 U.S. territories, 
40 foreign countries? The report's image of what is left of 
Norfolk Naval Base after a sea level rise of a few feet is 
dramatic. How must our military adapt to continue to train and 
operate effectively?
    The report notes that 2 years ago at Fort Hood, drought had 
become so persistent on training grounds that to prevent 
wildfire, the military had to drench its artillery range with 
water from helicopters before practicing with high explosives. 
The Marine Corps base at Miramar has had similar restrictions 
for years.
    How are we planning for more extreme weather events? The 
report argues our National Guard will be even busier at home 
and that our combatant commanders will continue to see an 
uptick abroad, especially in the Asia-Pacific. These concerns 
mirror those of our senior military officers and leaders.
    In 2008, the National Intelligence Council judged that more 
than 30 U.S. military installations were already facing 
elevated levels of risk from rising sea levels.
    Similarly, in 2010 and again in 2014, the Quadrennial 
Defense Review identified the effects of climate change as a 
risk that must be incorporated into defense planning. We look 
forward to hearing more about what that means for our troops.
    In conclusion, our military is unparalleled in its ability 
to execute a mission wherever, whenever necessary for our 
national security, and to overcome any challenge along the way. 
These issues relating to energy and climate are no different, 
and I look forward to the views that will be expressed from 
this panel.
    Let me turn it over to my ranking member, Senator Cochran.


                            energy research


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming these distinguished witnesses to the Defense 
Subcommittee to discuss energy security and research.
    We look forward to hearing their perspectives on proposals 
for Federal funding of energy and related technology 
initiatives in the fiscal year 2015 budget request.
    This subcommittee has been supportive of alternative energy 
research, reflecting the fact that while members may disagree 
about issues such as the causes of climate change, we can all 
agree that developing alternate sources of energy is vital to 
military operations and national security.
    Thank you for joining us today as we continue to consider 
specific recommendations for resource allocations to support 
our military and protect our national security interests.
    Senator Durbin. Thank you.
    Senator Shelby, ranking member of the full committee?
    Senator Shelby. Thank you. I would just like to say that I 
look forward to hearing from the witnesses.
    Senator Durbin. Thank you very much.
    I will say to the members of the panel, your full 
statements, obviously, will be included in the record.
    Let me start off by recognizing Mr. McGinn to proceed.


                  summary statement of dennis mc ginn


    Mr. McGinn. Thank you, Mr. Chairman, Senator Cochran, 
Senator Shelby. Thank you for having us over to talk about 
these two critical topics. They are foremost on the minds of 
many in the Department of Defense and all of the services.
    From our Nation's infancy, the United States Navy and 
Marine Corps team have embraced innovation. We have repeatedly 
improved on warfighting capability with better ship design, 
better weapons, tactics, and also more effective forms of 
energy.
    Our transition years ago, hundreds of years ago, from sail 
to coal, coal to oil, and then the addition of nuclear power, 
gave us all a competitive advantage on the high seas. Recent 
efforts at reducing consumption through energy conservation and 
diversifying our sources of energy are also intended to improve 
our ability to maintain forward presence on the critical sea 
lanes of the world.


                           alternative fuels


    Our operational energy program is focused on providing 
operational commanders with choices to include greater range, 
greater endurance, and greater payload while reducing their 
vulnerability.
    An example, USS Makin Island, LHD 8, is an example of Navy 
efforts to be a more effective force. Through the use of more 
efficient auxiliary propulsion systems, Makin Island  consumed 
4 million fewer gallons of fuel than anticipated during her 
maiden voyage in 2012. That was 4 million gallons we never had 
to deliver to the ship while they accomplished every mission 
assigned.
    Building on this success, we look forward to USS America  
joining the fleet this fall with the same type of propulsion 
system.
    Recently, I had the opportunity to attend great energy 
training events in major fleet concentration areas, San Diego, 
Norfolk, Camp Pendleton, Camp Lejeune. These young warriors get 
it. They understand that the fuel they need for operations can 
provide opportunity for the enemy, so they support our efforts 
to find new ways to operate the equipment we have, to get more 
fight with less fuel.
    Those efforts include the U.S. Marine Corps' Experimental 
Forward Operating Base, or ExFOB, which was just recently 
concluded last week--and I attended that out at Camp 
Pendleton--where industry sets up their equipment at the ExFOB 
for our marines to actually use and test in field conditions 
that will move us closer to the Commandant's vision of a Marine 
Corps that only uses liquid fuel for mobility on the 
battlefield and not for power.
    Our efforts to develop drop-in alternative fuels are 
another critical piece of maintaining our advantage. Buying 
domestically produced alternative fuel allows us to reduce the 
uncertainties connected to the global supply chain and also 
insulates us against price volatility and price rise in years 
to come.
    We are working with industry on improving the domestic 
alternative fuels supply chain. Through the Defense Production 
Act, there is a potential for up to four companies to 
collectively produce more than 160 million gallons of drop-in 
alternative fuels annually at a weighted average price of less 
than $3.50 per gallon.
    And on the demand side, our Farm-to-Fleet program will 
allow us to start integrating those advanced alternative fuels 
into our normal supply chains starting next year, in 2015, at a 
cost competitive with petroleum.


                           prepared statement


    I look forward to discussing our progress in creating a new 
energy ethos across our forces through a combination of 
technology, partnerships, and culture.
    Thank you for the opportunity to testify before you today, 
and I welcome your questions.
    [The statement follows:]
              Prepared Statement of Hon. Dennis V. Mc Ginn
    Chairman Durbin, Vice Chairman Cochran, members of the 
subcommittee; thank you for the opportunity to discuss the Department 
of the Navy's (DON) operational energy program and review the progress 
of the Advanced Drop-In Biofuels program.
    I also appreciate the subcommittee's continued support of the men 
and women in uniform and our civilian workforce and their families. 
These men and women serve their Nation around the world with skill and 
dedication, no matter the hardships they face.
    The Navy has a long, proud history of energy innovation; and it is 
no different today. Throughout his tenure, Secretary of the Navy Ray 
Mabus has made power and energy a top priority. In 2009, he announced 
five energy goals for the Department of the Navy to improve our energy 
security, increase our strategic independence, and improve our 
warfighting capabilities. The Department of the Navy is committed to 
generating one-half of its energy needs from non-fossil fuel sources by 
2020. Over these past 5 years, we have made real progress toward those 
goals through greater energy efficiency and alternative fuel 
initiatives.
    The wars in Iraq and Afghanistan have proven that energy is, and 
will continue to be, a national security issue. Each $1 increase in the 
price of a barrel of oil results in a $30 million bill for the Navy and 
the Marine Corps. These are the same dollars that provide for the 
operational readiness of our forces and we cannot afford to divert 
scarce resources in post--Budget Control Act fiscal environment.
    As you are well aware, President Obama directed the Department of 
the Navy to work with the Departments of Energy and Agriculture to 
promote a national biofuel industry. This year, under authority in 
Title III of the Defense Production Act (DPA), these three agencies 
plan to complete a Department of Defense (DOD) DPA award to up to four 
companies to produce up to 160 million gallons of drop-in biofuels each 
year at a weighted average price of less than $3.50 per gallon. This 
price will be competitive with what we are paying today for 
conventional fuels--this is aligned with DOD policy that operational 
quantities of biofuels must be cost competitive.
    The Farm-to-Fleet Program pairs DON and U.S. Department of 
Agriculture (USDA) to begin integration of JP-5 and F-76 biofuels blend 
purchases as part of the Defense Logistics Agency (DLA) Energy's 
regular bulk fuel acquisitions process. USDA Commodity Credit 
Corporation (CCC) funds are also available to support the effort. This 
will mark the start of the ``new normal'', where drop-in biofuels will 
be fully integrated with our regular operations and logistics.
    The program will begin with the 2014 Inland/East/Gulf Coast bulk 
fuels solicitation that will begin deliveries in mid-2015. This will be 
followed by the 2014 Rocky Mountain/West Coast program which will also 
begin deliveries in 2015. The Navy's requirement will stipulate that 
biofuels or other advanced alternative fuels comprise from 10 percent 
up to 50 percent of the total JP-5 and F-76 volume to be acquired. We 
anticipate the total volume of alternative fuels acquired through these 
contracts would be approximately 80 million gallons at the 10 percent 
alternative fuel blend.
    The use of CCC funds will be available to defray premiums to 
conventional fuels (if any) for biofuels whose feedstocks meet the Farm 
Bill definition of ``renewable biomass'' and are grown in the United 
States, its territories, and protectorates.
    In addition to our partnership with other Federal Agencies, we have 
also been working with our allies and strategic partners. We have 
signed Statements of Cooperation with both the Australian and Italian 
Navies to share biofuel specifications, research outcomes, and 
certification documentation. These actions will ensure the 
interoperability of all fuel types used among our allied partners.
    We continue to develop energy efficiency through research and 
development of more efficient propulsion systems. The USS Makin Island 
(LHD 8), during its maiden deployment in 2012, saved more than four 
million gallons of fuel resulting in an estimated cost savings in 
excess of $15 million. The Marine Corps' development of expeditionary 
power solutions, through the Experimental Forward Operating Base or 
ExFOB, has allowed them to lighten their load and be more agile 
warriors.
    Finally, during the past month and a half, I have attended energy 
training events at Marine Corps Bases Camp Lejeune and Camp Pendleton, 
and Naval Stations Norfolk and San Diego. And our Sailors and Marines 
get it. They understand that these programs are about diversifying fuel 
supplies, stabilizing fuel costs, and reducing our overall energy 
needs. They get that reducing our energy consumption translates into 
greater combat capability. And, they are ready to respond, whenever our 
Nation calls upon them.
    I thank you for the opportunity to testify before you today and I 
look forward to your questions.

    Senator Durbin. Thank you, Secretary McGinn.
    Secretary Morehouse, you may proceed.
STATEMENT OF EDWARD THOMAS MOREHOUSE, JR., PRINCIPAL 
            DEPUTY ASSISTANT SECRETARY OF DEFENSE, 
            OPERATIONAL ENERGY PLANS AND PROGRAMS OUSD, 
            AT&L
    Mr. Morehouse. Chairman Durbin, Senator Cochran, Senator 
Shelby, thank you for the opportunity to appear before you this 
morning and to talk about the operational energy program at the 
Department.
    I would like to start by recognizing my predecessor, Sharon 
Burke, for the indelible imprint she has left on the Department 
and our office, and I hope to continue her success.

                                 ENERGY

    I thought I would start by giving you a short overview of 
operational energy. The Department is the single largest user 
of energy in the country, about $20 billion per year. 
Operational energy is the energy we use to acquire, to train, 
to move, to sustain forces and platforms for military 
operations. It is about 75 percent of that total.
    The energy in liquid fuels and batteries is the lifeblood 
of the military. It powers our vehicles, our ships, our 
aircraft, our generators, our bases, and our dismounted 
warriors. The bottom line is energy is a critical mission 
enabler.
    If you take away one thing from my testimony today, I hope 
it is this: That the goal of our office is to strengthen our 
military capabilities by improving how we use energy in the 
field, particularly reducing the burdens and risks from our 
energy supply lines.
    Using energy more wisely will enable us to fly and sail 
farther, to loiter or remain on station longer, and give us 
supply lines that are more secure, requiring fewer forces and 
fewer lives and less money to sustain.
    Energy is likely to be an even bigger concern as we 
rebalance to the Asia-Pacific. Vast distances, increased 
logistical challenges, and potential adversaries are likely to 
have more formidable capabilities to target us with more 
precision and a longer range, putting our supply lines at 
greater risk to attack.
    In fiscal year 2015, the Department estimates it will 
consume about 96 million barrels of fuel at a cost of about $15 
billion. In fiscal year 2015, we are also going to invest $1.7 
billion in initiatives to improve how we consume that energy 
for military operations and about $9 billion across the FYDP 
(Future Years Defense Program).
    Ninety-two percent of that investment goes to improving the 
energy performance of our weapons and our military forces. This 
includes procurement programs such as the Army's efficient 
generator program, and innovative efforts such as engine 
programs for fighter aircraft and for helicopters.
    Eight percent of the investment goes into diversifying and 
securing our supplies of operational energy. This includes, for 
example, the Marine Corps' program to procure tactical solar 
generation and recharging systems for batteries.
    Supporting these investments are increased efforts to 
develop better analytic tools that will allow us to better 
understand how energy affects our strategies, our plans, our 
requirements, and our acquisition processes.
    And we have made a great deal of progress. With energy and 
energy logistics now being incorporated into major wargames, 
and a mandatory performance parameter into our requirements 
development process, our understanding of how energy affects 
our operations is deepening.
    In addition to the focus on future force, the office 
continues to promote operational energy innovation through our 
own science and technology investments. We will also continue 
to examine how global energy dynamics affect national security 
and shape our defense missions.

                           PREPARED STATEMENT

    We will continue to use our oversight and budget 
certification authority to share information and insights 
across the services, and encourage consideration of operational 
energy throughout the Department's decisionmaking processes.
    Finally, we will continue to support deployed forces with 
energy solutions ranging from rapid fielding of new 
technologies to adapting war plans to incorporating energy into 
international partnerships, and by gathering and applying those 
lessons we have learned from Afghanistan.
    Thank you for your time, and I look forward to your 
questions.
    [The statement follows:]
           Prepared Statement of Edward Thomas Morehouse, Jr.
                              introduction
    Chairman Durbin, Vice Chairman Cochran, and distinguished members 
of the subcommittee, thank you for the opportunity to discuss my office 
in the Department of Defense, Operational Energy Plans and Programs 
(OEPP). Today, the Department faces continued operational energy 
challenges as our defense posture adjusts to meet the rapidly-changing 
global security environment. The dynamic global energy landscape adds 
to our strategic challenges and opportunities. I will provide some 
perspective on those issues, along with an update of our progress and 
some information on the President's fiscal year 2015 Budget Request as 
it relates to operational energy.
                            mission of oepp
    Established in 2010, my office's primary purpose is to strengthen 
the energy security of U.S. military operations. Specifically, the 
office's mission is to help the Military Services and Combatant 
Commands improve military capabilities, cut costs, and lower 
operational and strategic risk through better energy planning, 
management, and innovation. By statute, operational energy is defined 
as the energy required for training, moving, and sustaining military 
forces and weapons platforms for military operations. In June 2011, the 
Department released ``Energy for the Warfighter: The Department of 
Defense Operational Energy Strategy,'' which set the overall direction 
for energy use in the Department: to assure reliable supplies of energy 
for 21st century military operations. It outlines three ways to meet 
that goal: reducing the demand for energy; expanding and securing the 
supply of energy; and building energy security into the future force.
    These goals are especially important as we build a military force 
that is prepared and postured for a complex, global security 
environment, ``capable of simultaneously defending the homeland; 
conducting sustained, distributed counterterrorist operations; and in 
multiple regions, deterring aggression and assuring allies through 
forward presence and engagement,'' as the Secretary of Defense called 
for in the 2014 Quadrennial Defense Review (QDR). The QDR also directly 
connects energy to capability, noting that, ``Energy improvements 
enhance range, endurance, and agility, particularly in the future 
security environment where logistics may be constrained.'' To these 
ends, OEPP has achieved considerable progress by supporting current 
operations and energy innovation, building operational energy 
considerations into the future force, and promoting institutional 
change within the Department.
                       changing energy landscape
    DOD's efforts to transform our own energy use are occurring as the 
global energy landscape rapidly changes. Here at home, the significant 
surge of domestic oil and gas production is fundamentally altering the 
balance of the energy markets we have known for the past 40 years. The 
United States is expected to become the world's largest producer of 
natural gas; around the country, massive terminals built to import 
natural gas are now rapidly being converted to export it.\1\ Oil 
imports have been reduced by about 2.5 million barrels a day in just 
the last 5 years \2\ while U.S. production is expected to increase by a 
further 3 million barrels per day by the end of the decade.\3\ The 
United States now exports around 3 million barrels per day of refined 
product, an increase of more than 2 million barrels per day since 
2005.\4\
---------------------------------------------------------------------------
    \1\ http://www.eia.gov/todayinenergy/detail.cfm?id=13251.
    \2\ http://www.eia.gov/dnav/pet/hist/
LeafHandler.ashx?n=pet&s=wcrimus2&f=w.
    \3\ http://www.eia.gov/forecasts/aeo/er/early_production.cfm, EIA 
Annual Energy Outlook, Early Release Overview, ``U.S. production of 
crude oil (including lease condensate) in the AEO2014 Reference case 
increases from 6.5 MM bbl/d in 2012 to 9.6 MM bbl/d in 2019.''
    \4\ http://www.eia.gov/dnav/pet/hist/
LeafHandler.ashx?n=PET&s=MTPEXUS2&f=M, EIA data on U.S. exports of 
finished petroleum products indicates monthly U.S. exports of finished 
petroleum products in November 2013 was 3 million bbls/d compared to 
811,000 bbls/d in November 2005.
---------------------------------------------------------------------------
    This rebalance is significantly altering the flow of the global 
energy trade. Energy shipments from West Africa that used to cross the 
Atlantic are now headed to Europe or through the Indian Ocean en route 
to Asia. Permits to export natural gas are now being approved and by 
the end of the decade we can expect U.S. natural gas to be available 
for markets in Europe and Asia. It is not just the supply patterns that 
are changing. Energy demand in the developed world has leveled off. The 
majority of the growth in the world's energy consumption over the next 
decade will come from the developing world with China, India, and other 
non-Organization for Economic Co-operation and Development countries 
increasing their energy consumption by 50 percent in the next 20 
years.\5\
---------------------------------------------------------------------------
    \5\ http://www.eia.gov/forecasts/ieo/world.cfm--According to EIA, 
non OECD countries consumption will rise from 307 quadrillion BTUs in 
2013 to 460 by 2030.
---------------------------------------------------------------------------
    As regions which have previously exported to the United States 
redirect their energy products to new customers, our economic, 
political, and military relationships with those countries will evolve 
as well. As the Department considers base access, security cooperation 
and partnerships, we must be cognizant of these changing underlying 
economic forces.
    We also see how the appearance of new energy resources is 
influencing the Department's strategic direction. Last year, Secretary 
of Defense Chuck Hagel unveiled DOD's first-ever Arctic Strategy and 
addressed the driving force behind it--global climate change. According 
to the U.S. Navy's Task Force Climate Change, ``average Arctic 
temperatures have increased at almost twice the global average rate'' 
in the past 100 years, and ``in 2012, Arctic sea ice reached its 
smallest extent in recorded history, 1.3 million square miles.'' The 
changes in that region have opened up new areas to energy development 
and shipping. As the Arctic region becomes more accessible to other 
nations, expanded capabilities and capacity may be required to increase 
U.S. engagement in this region.
    Changes in the climate, driven by global energy use, will affect 
military operations elsewhere as well. Specifically, as the 2014 QDR 
found, climate change can act as threat multiplier, as heat waves, 
drought, floods, and severe storms may significantly add to the 
associated challenges of instability, hunger, poverty, and even 
conflict. At the installation level, climate risks may disrupt 
training, testing, and direct support to ongoing operations. In fact, 
the National Intelligence Council estimates over 30 U.S. military 
installations face elevated risks from rising sea levels. In the cases 
of severe weather events, demands on the Department for humanitarian 
assistance or disaster response--both within the United States and 
abroad--may increase as the climate changes.
    However, even with all these changes, some constants remain. First, 
it is important to point out that most of the Department's operations 
occur outside the United States, and we will continue to buy energy 
overseas to simplify our supply chains, limit costs, and increase 
flexibility for the warfighter. Second, a large proportion of global 
energy will continue to flow through a relatively small number of 
chokepoints. Today, nearly a fifth of all oil and nearly 25 percent of 
globally traded liquefied natural gas transit the Strait of Hormuz. 
Current and planned pipelines across the Arabian Peninsula and around 
the Strait would provide only limited relief in the event of a blockage 
and would do little to cushion any global price spike. The Strait of 
Hormuz will continue to pose an outsize risk to global prices for the 
foreseeable future--and to prices at the pump here at home.
    Indeed, the Middle East will remain a major source of oil for 
nations across the globe, particularly our allies in Asia. Even so, the 
2014 QDR states that ``competition for resources, including energy and 
water, will worsen tensions in the coming years and could escalate 
regional confrontations into broader conflicts--particularly in fragile 
states'' in the Middle East. As long as petroleum powers our 
transportation sector, we will experience the economic consequences of 
price volatility from events in any oil-producing region. At the United 
Nations General Assembly this past September, the President made clear 
that the United States will continue to ensure the free flow of energy 
from the Middle East to the world, even as the United States steadily 
reduces our dependence on imported oil. It is important to remember 
that even as the United States is able to meet more of our energy needs 
ourselves, the price for oil and petroleum products will still be set 
by a global market.
            the defense energy challenge--today and tomorrow
    As a critical enabler for military operations, the Department 
consumes significant amounts of energy executing missions around the 
globe. While only accounting for approximately 1.3 percent of U.S. oil 
and petroleum consumption in fiscal year 2013, the Department is the 
single largest energy user in the Nation. In fiscal year 2013, the 
Department consumed almost 90 million barrels of liquid fuel at a cost 
of $14.8 billion, with more than 60 percent of that outside of the 
United States. In fiscal year 2014, the Department estimates it will 
consume nearly 105 million barrels of liquid fuels at a cost of $16 
billion. In fiscal year 2015, the Department estimates it will consume 
96 million barrels of liquid fuel at a cost of approximately $15 
billion.
    The Department's demand for operational energy varies according to 
the missions assigned to the Department, as well as the equipment used 
in to execute those missions. Including training, exercises, and the 
full range of military operations, the Department uses operational 
energy to maintain readiness and deploy, employ and sustain forces 
around the globe. Year over year, operations tempo reflects unexpected 
demands (i.e., post-9/11 operations, humanitarian relief missions) as 
well as changes in the magnitude of other ongoing operations like 
Afghanistan.
    In Afghanistan, the Department used more than 9 million barrels of 
liquid fuels to support Operation Enduring Freedom in fiscal year 2013. 
In addition to the fuel provided to vehicles and aircraft, the demand 
for electricity on the battlefield has steadily increased over years of 
sustained combat operations. Combat outposts and forward operating 
bases are the hubs for our troops--to project power from, fight from, 
and live in. However, they consume tremendous amounts of energy and 
have, therefore, been a steady focus of recent efficiency efforts.
    The reliance on diesel generators to supply battlefield and 
contingency base electrical power produces an unintended consequence--a 
growing energy sustainment burden that must be sourced, in many cases, 
from great distances. Unfortunately, that logistics effort consumes 
fuel as well. The two main fuel distribution routes into Afghanistan 
present daunting challenges that range from the political effort needed 
to sustain them, to long distance transport on unimproved roads with 
multiple choke points and poor weather conditions which can slow 
movement to a trickle, and the threat of attack from insurgents or 
thieves. Each of these challenges adds time, manpower, and cost to the 
supply process. Once the fuel reaches larger distribution points inside 
Afghanistan, it still needs to be deployed to a nationwide network of 
bases and outposts. Given the terrain and the threat, aerial 
distribution of supplies, including fuel, is often used to sustain 
coalition efforts across Afghanistan. Delivering all of this fuel takes 
a toll on aircraft, vehicles, and personnel. Looking further back in 
the supply chain, DOD has depended on political support from countries 
that allow our energy supplies to flow into Afghanistan through 
northern or southern transportation routes, which can be disrupted at 
any time.
    The growing requirement for troop-borne capability has launched 
another sustainment burden--portable batteries--which represents a 
serious logistical challenge for the warfighter as our troops are 
increasingly overburdened platforms themselves. They carry gear which 
sends and receives data from remotely powered aircraft and far-away 
command posts, and integrates the information into intelligence 
collection, surveillance, and targeting like never before. Soldiers and 
Marines have scopes, sights, and radios that give them unsurpassed 
awareness and accuracy. But, this capability requires a steady supply 
of power, and for dismounted operations that means batteries, and lots 
of them. Consider an Army estimate that an average troop on a three-day 
patrol may carry up to 23 batteries weighing nearly 14 pounds. While 
these batteries support important capabilities, the trend of increasing 
weight is unsustainable from both resupply and soldier loading 
perspectives. Battery resupply requirements can greatly diminish a 
patrol's combat radius, and soldier-carried weight already impedes 
mobility on the battlefield and presents a significant risk of 
musculoskeletal injuries.
    These fuel and battery requirements also place a significant 
logistics burden on planners, troops, equipment, and supply lines. 
Reducing the demand for energy on the battlefield has a direct effect 
on reducing the energy logistics burden and freeing up manpower and 
equipment resources previously engaged in logistics tasks to 
operational commanders for use in generating combat power.
    As we draw down forces from ongoing operations in Afghanistan and 
adapt to a changing security environment, the Department's use of 
energy will continue to be of great importance. Generally speaking, our 
future operating environment will include a range of threats--from 
homemade improvised explosive devices (IEDs) and suicide bombers to 
GPS-guided mines and missiles, computer viruses, and electronic 
warfare--that may not only characterize actual combat, but also 
situations short of war. At the same time, the lessons of the last 12 
years have not been lost on our potential adversaries, who are 
increasingly developing or acquiring capabilities that threaten our 
ability to project and sustain this power. These asymmetric and ``anti-
access/area-denial'' capabilities will likely target those U.S. 
capabilities that may be more susceptible to disruption, such as 
logistics, energy, and command and control.
    More specifically, the President and the Secretary have emphasized 
that we shift our strategic focus to the Asia Pacific, a region whose 
security and prosperity is indispensable to our own. Promoting our 
interests in the area--and much of that will focus on non-military 
tools--means long distances, far from our own shores. For example, 
intra-theater lift in Afghanistan requires a fraction of the fuel that 
will be required for intra-theater lift in the Pacific. A cargo plane 
flying from Bagram to Kandahar burns around 3,000 gallons of fuel, but 
that same aircraft will burn around 11,500 gallons of fuel flying from 
Guam to Seoul and over 16,000 gallons flying from Guam to Singapore. In 
this environment, demands for fuel, electricity, and energy logistics--
aerial refuelers and oilers, for instance--can become a limiting factor 
for military operations. Not only will we need extended range and 
endurance to operate--whether for today's relief missions in the 
Philippines or for other military missions--but we also will need to be 
interoperable with our allies and partners from an energy and logistics 
perspective to effectively carry out coalition operations. In fact, 
energy can be a positive tool for cooperating with emerging partners to 
help support U.S. presence and operations with U.S. forces.
                            reducing demand
    Increasing combat effectiveness in current operations through 
reductions in fuel demand has been a significant DOD focus since OEPP's 
establishment in 2010. To quote the former International Security 
Assistance Force/U.S. Forces-Afghanistan Commander General John Allen, 
``Operational energy equates exactly to operational capability.'' \6\ 
We aspire to achieve the most ``mission per gallon'' by reducing the 
demand for energy and decreasing the logistics effort necessary to 
support the warfighters. The Department has made progress, particularly 
at the tactical edge where fuel logistics cost the most and resupply 
risks are the greatest. However, DOD's fuel demand still accounts for a 
large percentage of the overall logistics burden and many opportunities 
remain to build a more efficient future force. In general, this is a 
huge incentive for improving our materiel capabilities and is reflected 
in the $1.7 billion in fiscal year 2015 and $8.3 billion across the 
Future Years Defense Program that the Services have budgeted for 
operational energy initiatives and efficiency improvements. That 
equates to almost 92 percent of the OE-related budget invested in 
reducing the demand for energy.
---------------------------------------------------------------------------
    \6\ ISAF/USFOR-A memo, ``Supporting the Mission with Operational 
Energy,'' 11 December 2011.
---------------------------------------------------------------------------
    Let me sketch out some key activities to highlight the OEPP's 
efforts in partnership with the Combatant Commanders.
US Central Command (USCENTCOM)
    The Operational Energy Division (OED) within the Joint Program 
Integration Office at U.S. Forces-Afghanistan (USFOR-A) was established 
in 2011 with a mandate to improve operational capabilities and 
warfighter effectiveness by reducing our forces' reliance on liquid 
fuels. Staffed with technical experts, the OED continues to develop and 
implement materiel and non-materiel energy solutions to reduce 
dependence on petroleum fuels and increase operational effectiveness. 
OED coordinates directly with OEPP, and we maintain a close 
relationship to address operational energy issues and initiatives in 
theater. In 2012, OEPP and OED combined efforts with the Army's Program 
Manager-Mobile Electric Power (PM-MEP) to answer an Operational Needs 
Statement with $110 million worth of advanced, energy efficient power 
generation and distribution equipment. OED and OEPP also collaborated 
to fund and support an operational demonstration of an advanced 
tactical microgrid to gather data for future microgrid technology 
development.
    This past year, OED also provided significant support to Operation 
DYNAMO. Improvements in energy efficiency produce the greatest leverage 
at the extreme tactical edge, since the risks and costs to provision 
fuel there are so great and potentially so disruptive to the 
operational mission. In a tactical environment, electrical demand has 
usually been met by multiple diesel-powered generators, sized for peak 
loads but often operating far from peak capacity and efficiency. The 
consequence of poor generator loading is significant fuel waste, 
increased maintenance effort, and decreased reliability. In an attempt 
to address those issues, PM-MEP, in coordination with USFOR-A OED, 
recently completed Operation DYNAMO I and II, which assessed the 
electrical supply and demand footprint at 67 forward operating 
locations. Mission-specific advisory teams developed more efficient 
power generation and distribution plans, replaced older equipment with 
more than 500 fuel efficient Advanced Medium Mobile Power System 
generators and 430 Improved Environmental Control Units, updated 
distribution systems to improve reliability and safety, and trained 
local soldiers to operate and maintain the equipment properly. This 
effort spotlights the value of OE advisors teamed with expert 
technicians and military standard equipment and their ability to become 
a significant combat force multiplier for operational commanders. 
Building on the success of its predecessors, Operation DYNAMO III is 
underway now to oversee the right sizing of power assets during the 
drawdown in Afghanistan to ensure that as we reduce our forces we 
continue to apply the lessons we have learned.
US Pacific Command (USPACOM)
    OEPP has embraced emergent energy challenges in the Pacific and 
partnered with USPACOM and other key stakeholders to understand and 
address them.
    The vast expanse of the oceans and seas that comprise USPACOM's 
Area of Responsibility put a premium on the ability of maritime forces 
to foster relations with partner nations, protect commercial and 
military shipping, and execute offensive operations on and from the 
sea. The Navy is exploring many technologies, such as Hybrid Electric 
Drive, stern flaps and improvements to marine-growth reducing hull and 
propeller coatings, to reduce fuel consumption. The Naval Postgraduate 
School-developed Replenishment at Sea Planner is great example of an 
inexpensive, in-house software solution to reduce our logistics burden. 
It is intended to optimize logistical transit plans and the fuel 
necessary for both warships and military sealift logistics vessels to 
prepare for and execute underway replenishment. This software tool is 
already in use in Fifth and Seventh Fleets and is expected to save 
millions of dollars in fuel costs each year.
    OEPP remains engaged in the Department's ongoing efforts to improve 
liquid fuel delivery ashore in areas where little to no distribution 
infrastructure exists. In April 2013, my predecessor attended the Joint 
Logistics Over-The-Shore demonstration in Korea. This recurring, 
combined U.S./Republic of Korea event exercises our ability to deliver 
fuel, supplies and equipment from ships at sea to encampments ashore 
where sufficient maritime port facilities do not exist. We have 
impressive over-the-shore fuel distribution capabilities, and yet they 
may be stressed in some scenarios. I am pleased that the Navy has 
programmed $34 million between fiscal year 13-17 to fund a replacement 
for an aging Offshore Petroleum Discharge System ship the USS 
Petersburg, while the Army develops the next generation of Inland 
Petroleum Distribution System. Each Service needs to continue to ensure 
that this capability can meet current and future operational 
requirements.
    As the DOD operational energy strategy has evolved, OEPP and the 
Combatant Commanders have expanded our efforts beyond improving only 
U.S. force capabilities. Teaming with partner nations to improve fuel 
efficiency and reduce energy demand across our combined forces benefits 
global cooperation and our combined security in the region. To that 
end, my office is currently exploring options within the Asia-Pacific 
region to identify and assess low-cost, high-payoff operational energy-
related security cooperation opportunities that could contribute to 
broader U.S. and Asia-Pacific partner policy objectives. The results 
are intended to inform future guidance to inform USPACOM planning 
guidance, and to build partnership capacity activities for USPACOM, the 
Joint Staff, the Office of the Secretary of Defense (OSD), and 
interagency partners. Additionally, ongoing contingency basing energy 
technology demonstrations and experimentation events during joint and 
combined exercises, such as CRIMSON VIPER in Thailand and BALIKATAN in 
the Philippines, are improving our own capabilities and those of key 
partner nations through focused military-to-military engagements.
US Africa Command (AFRICOM)
    In the US Africa Command area of responsibility, OEPP is mentoring 
a growing and effective headquarters staff effort to incorporate 
operational energy across their operations and theater security 
cooperation activities. The staff recently assigned its first dedicated 
operational energy advisor and, in addition, continues to benefit from 
a Department of Energy (DOE) employee serving as a liaison to advise 
the commander on energy issues. Additionally, my office supported the 
establishment of the governance structure for the command's Interagency 
Energy Security and Environment Working Group which considers 
operational energy equities in operations and exercises.
    As the United States increases its focus on the African continent, 
the Department is similarly stepping up its efforts to support the 
Combatant Commander across a range of operational energy issues. The 
austere operating environment is compounded by the lack of 
infrastructure which introduces a challenging sustainment picture. The 
Army's Rapid Equipping Force recently conducted an energy assessment of 
remote and urban locations supporting U.S. forces across the Trans-
Sahara region to help them increase electrical power generation, 
improve electrical safety, and increase drinking water production and 
safety. The Naval Facilities Engineering Command, in coordination with 
the National Renewable Energy Laboratory, completed an energy 
assessment at Camp Lemonnier, Djibouti. Camp Lemonnier, though an 
enduring site and under the responsibility of the Office of the Deputy 
Under Secretary of Defense for Installations and Environment 
(ODUSD(I&E)), contains some equipment more typical of contingency 
locations, so OEPP collaborated with the ODUSD(I&E) on energy issues at 
the Camp by identifying peak electrical load requirements and analyzing 
the energy demand impact of several new environmental control system 
configurations. In addition, my office recently partnered with the U.S. 
Agency for International Development to exchange information, establish 
a working forum, and begin leveraging DOD lessons learned in 
Afghanistan to assist the Power Africa initiative in its mission to 
improve power distribution to rural villages and towns.
    In general, as part of my office's focus on contingency basing, we 
recently helped identify measures in CENTCOM, SOUTHCOM, and AFRICOM to 
reduce fuel demand in contingency plans and to determine the potential 
operational value of that fuel demand reduction. Employing improved 
power generation equipment and shelter construction standards, and 
future fuel efficiency improvements to aerial resupply vehicles, will 
help operational commanders optimize in-theater fuel resupply plans as 
part of larger contingency planning efforts.
Operational Energy Capability Improvement Fund
    My office is also supporting longer term innovation and change via 
the Operational Energy Capability Improvement Fund (OECIF). The OECIF 
began in fiscal year 2012 with the goal of funding innovation that will 
improve the operational energy performance of our forces while creating 
institutional change within the Department. It promotes partnering and 
joint programs and encourages Service teaming. The programs started in 
fiscal year 2012 have concentrated on reducing the energy load of our 
expeditionary outposts. For example, there is a joint Army/Air Force 
program developing ways to improve the energy efficiency of soft 
shelters (i.e. tents), which has demonstrated improved tents and camp 
architectures in Kuwait, resulting in a 50 percent reduction in power 
consumption. Another program demonstrated a 54 percent reduction of the 
energy needed to cool hard shelters (i.e. containerized living units) 
used in Djibouti, Africa. In fiscal year 2012, OECIF also started a 
program to demonstrate and evaluate load reduction technologies for 
expeditionary outposts in tropical environments--something particularly 
suited to our shift to the Pacific environment. By combining upgraded 
environmental control units (ECUs) with light emitting diode (LED) 
lighting and hybrid automatic/manual controls, energy savings as high 
as 80 percent over earlier technologies have been demonstrated. The 
OECIF is also supporting the development of technology for more 
efficient ECUs, which heat and cool our deployed shelters and consume a 
great deal of energy, including through a partnership between the Navy 
and the Department of Energy's Advanced Research Projects Agency for 
Energy (ARPA-E).
    The OECIF programs begun during fiscal year 2013 emphasized 
establishing entities aimed at involving a wide variety of 
organizations in solving our operational energy problems. OEPP 
encouraged the use of innovative business methods, such as consortia, 
to involve small businesses and non-traditional defense contractors. 
For example, one of these programs, led by the Army, is focused on 
energy for our dismounted warfighters. Our soldiers and Marines benefit 
from the world's most technologically advanced weaponry; however, this 
equipment can require that a warfighter carry around 14 pounds of 
batteries on lengthy patrols. The Army-led OECIF program is meant to 
comprehensively address this problem through developing better system 
engineering techniques and technologies to improve both the energy 
demand and supply in order to reduce the weight burden. Other programs 
begun in fiscal year 2013 are developing standards for tactical 
microgrids to promote their interoperability and adoption, developing 
planning methods and control technologies for designing and running 
more efficient expeditionary outposts, and engineering surface coatings 
to reduce aircraft drag.
    Most recently, for fiscal year 2014, OECIF is pursuing new programs 
to develop the analytic methods and tools necessary to support the 
thorough analysis and consideration of operational energy issues 
throughout DOD's various planning and management processes. The basic 
idea is to give decision makers within the Department better ways to 
factor operational energy into their decisions. This focus was based on 
our experience in the last few years and on observations made during 
our budget certification process, where we found challenges to the 
ability of the Department to consider energy in its decisions. We are 
using the OECIF to help solve it, which is consistent with its goal of 
creating institutional change.
                         increase/assure supply
    Another element of our strategy is diversifying and securing 
military energy supplies to improve the ability of our forces to get 
the energy they require to perform their missions.
Alternative Energy and Fuels
    The Department's operational energy investments are focused on 
meeting warfighter needs, including by diversifying the Department's 
supply options. One focus is on energy that can be generated or 
procured locally near deployments to lessen the burden on supply lines. 
The Services are evaluating, and, where appropriate, deploying tactical 
solar technologies to generate electricity on contingency bases or to 
recharge batteries to increase patrol range and mission duration. OEPP 
is assisting in these efforts by coordinating information sharing 
amongst the Services and between the Services and DOE, which has broad 
technical expertise in civilian solar technologies. Additionally, the 
Department is funding research in deployable waste-to-energy systems 
that could reduce the volume of waste requiring disposal and produce 
energy for contingency bases. Other technologies in which the 
Department is investing include hydrogen-powered and solar-powered 
unmanned aerial vehicles, which have the potential to achieve much 
longer mission durations than those powered by traditional petroleum-
based products.
    Another component of the Department's operational energy strategy 
is alternative fuels. As the Nation's largest consumer of energy, the 
Department recognizes that our military will need alternatives to 
petroleum to diversify sources of supply. Over the long term, the 
Department will need fuels derived from various feedstocks that are 
cost-competitive, widely available around the world, and compatible 
with existing equipment and storage infrastructure, as our existing 
fleet of ships, planes, and combat vehicles will be with us for decades 
to come. So the Department is investing around 2 percent of its 
operational energy funding over the next 5 years on alternative fuels. 
The Services are focusing the majority of their alternative fuels 
efforts on certifying aircraft, ships, tactical vehicles, and support 
equipment to use these emerging fuels, as they have been doing since 
2006. These initiatives improve the flexibility of military operations 
by ensuring that our equipment can operate on a wide range of fuels 
when they are cost-competitive and commercially available.
    To create clear guidelines on the Department's alternative fuels 
investments both now and in the future, on July 5, 2012, the Department 
of Defense Alternative Fuels Policy for Operational Platforms was 
released, pursuant to Section 314 of the National Defense Authorization 
Act of 2012. The policy establishes coordinated, Department-wide rules 
to guide and streamline its investments in the development and use of 
alternative fuels. The policy states that the Department's primary 
alternative fuels goal is to ensure operational military readiness, 
improve battlespace effectiveness, and further the flexibility of 
military operations through the ability to use multiple, reliable fuel 
sources. All Department investments in this area are reviewed during 
the Department's annual operational energy budget certification 
process.
    To date, the Department has only purchased test quantities of 
biofuels for testing and certification purposes. These test fuels are 
often more expensive than commercially-available petroleum fuels 
because they tend to be produced at small, not-yet-commercial-scale 
facilities using novel conversion technologies. However, the policy 
formalized what was already the practice for all the Military Services: 
the Department will not make bulk purchases of alternative drop-in 
replacement fuels unless they are cost competitive with traditional 
petroleum products. With this policy in place, the Department will 
continue to steward its alternative fuels investments towards the 
ultimate goal of enhancing the long-term readiness and capability of 
our joint force.
    Because the Department does have long-lived platforms designed to 
use liquid fuels, there is a long-term defense interest in fuels 
diversification. The Department also supports a larger national goal to 
promote the development of low-carbon, renewable fuels. The Defense 
Production Act (DPA) advanced drop-in biofuels production project, led 
by the OSD Manufacturing and Industrial Base Policy Office, is a 
Department of Defense partnership with the private sector and the 
Departments of Energy and Agriculture, which have the lead roles for 
the Federal Government for biofuel feedstocks and production. This 
project works to accelerate the production of cost-competitive advanced 
alternative fuels for both the military and commercial transportation 
sectors. The fiscal year 2012 DPA funding for Phase 1 was awarded to 
four companies in May/June 2013 and is being used for competitive 
commercial-scale integrated biorefinery design efforts. Awards totaled 
$20.5 million, which was matched by $23.5 million in private sector 
funds. The technical evaluations for Phase 2 proposals are complete, 
and in July 2014, awards of $70 million will be made to up to four 
companies for the construction of drop-in biofuel production 
facilities.
Securing Our Energy Supplies
    There is rising concern about risks to the U.S. electric grid that 
powers most DOD bases, ranging from cyber-attacks to hurricanes. The 
risks and vulnerabilities of the U.S. electric grid and overseas 
electricity supplies supporting DOD facilities are not well 
characterized. Today, military operations can include warfighters 
conducting missions remotely from domestic facilities; the disruption 
of electric power in one location could adversely affect the outcome of 
a battle thousands of miles away. And, in the event of a major domestic 
outage, as with Hurricane Sandy, the lack of adequate power could 
create tension between Defense support for civilians and the 
Department's own needs.
    We recognize the need for better information and coordination on 
risks to the grid and are exploring the Department's role in building 
resiliency into the system. To that end, OEPP and the lead offices 
within OSD responsible for electric grid issues (i.e., ODUSD(I&E) and 
the Office of the Assistant Secretary of Defense for Homeland Defense 
and America's Security Affairs), in partnership with the Department of 
Homeland Security's Office of Infrastructure Protection, led an 
interagency, scenario-based workshop to gain a better understanding of 
how the Department would respond to a prolonged and widespread power 
outage in the National Capital Region that affected military bases and 
missions in the area. We continue to engage in discussions with utility 
service providers, Federal agencies and other DOD entities to address 
this challenge.
    In addition to electrical power concerns we are also looking at the 
security of our liquid fuel supply. OEPP is currently examining 
logistical challenges generated by the vast distances and extensive 
operating areas present in the Asia-Pacific theater. My office is 
working with the Defense Logistics Agency and the Joint Staff in 
studying nodes and transportation links to support modifications to the 
Global Petroleum Distribution System.
             building energy security into the future force
    The Department continues to make strides in improving energy 
security for the future force. We have invested a significant amount 
into the development and deployment of operational energy initiatives 
to increase the combat effectiveness of our warfighters. Programs of 
note include the:
  --Adaptive Engine Technology Development (AETD) program--AETD is 
        focused on developing a ``sixth-generation'' fighter engine 
        with better fuel-burn rates. At the core of the program is a 
        move to a design with three streams of air, allowing more 
        flexibility for the engine to operate efficiently under varying 
        conditions. AETD's goal is to provide 25 percent greater fuel 
        efficiency which will increase range and endurance of fighter 
        aircraft and decrease the requirement for tanker aircraft to 
        support AETD-equipped aircraft. The Department recently 
        announced a follow on program, the Advanced Engine Technology 
        Program, to carry the engine through technology maturity risk 
        reduction.
  --Improved Turbine Engine Program (ITEP) program--This program 
        provides an improved engine for the Apache and Blackhawk 
        helicopter fleets to replace the current T-700 engine. ITEP 
        will improve operational effectiveness by giving commanders an 
        improved aviation fleet with longer loiter time, increased 
        altitude limits, increased payload and lower fuel and 
        maintenance costs. The Army expects a 25 percent fuel reduction 
        from current engine consumption levels.
  --Hybrid Electric Drive (HED) program--The Navy will begin installing 
        HEDs in Arleigh Burke-class (DDG 51) destroyers in 2016. HED is 
        an electric motor attached to the main reduction gear of DDG-
        51-class ships to provide low speed propulsion, resulting in 
        improved fuel economy and longer time on station. Installation 
        of an HED on a single ship has the potential to save over 5,000 
        barrels of fuel per year, which equates to approximately a 7 
        percent reduction from current usage or 11 additional underway 
        days each year, and provides our commanders at sea improved 
        operational flexibility.
  --Medium Tactical Vehicle Replacement (MTVR)--This effort includes 
        developing and demonstrating a fuel efficiency improvement of 
        15 percent over the existing MTVR while maintaining 
        affordability, mobility and survivability. Additionally, within 
        this program, the Marine Corps funded the procurement of 
        prototypes of the On-Board Vehicle Power sources to reduce fuel 
        requirements at idle, which is the majority of the vehicle 
        drive cycle.
    We have worked with the Joint Staff and the Services to implement 
the Energy Key Performance Parameter (eKPP) or energy Key Support 
Attribute (eKSA) across all acquisition categories. This includes 
Acquisition Category I programs such as the Armored Multipurpose 
Vehicle, Joint Light Tactical Vehicle, DDG-51 Flight III and the Air 
Missile Defense Radar, along with smaller acquisition programs such as 
the Medium Tactical Vehicle Replacement, Prime Power Mobile Production 
System, and the Force Provider--Expeditionary Program. The eKPP and 
supporting analyses are included in the Chairman of the Joint Chief of 
Staff (CJCS) Instruction and the Joint Capabilities Integration and 
Development System (JCIDS) Manual. It is a requirement for all program 
seeking Joint Requirements Oversight Council (JROC) approval unless a 
waiver is approved.
    In regards to shaping the requirement and acquisition systems, the 
Department is working to conduct operational energy analysis earlier; 
that will provide a greater opportunity to consider the tradeoffs and 
options that would result in a more energy-secure force, more effective 
or efficient equipment, or a more capable force. The Joint Staff, the 
Service Energy Offices, and my office have worked together to make 
operational energy an integral part of war games and exercises. We are 
developing a tool to provide the war gamers timely feedback about 
attacks on our logistics and energy supplies. We are also working 
together to ensure operational energy supportability analysis is 
conducted during the Services' concept development, which provides a 
realistic energy distribution and allows simulated enemy forces to 
interdict our energy supplies, to more closely approximate real world 
conditions.
    Moving forward, we must continue to fund analysis to identify which 
capabilities and missions to target for operational energy 
improvements. We have found that engaging earlier, well before 
Milestone A, will give us the greatest opportunity to provide greater 
capabilities through operational energy improvements.
      institutionalizing operational energy by sharing information
    OEPP has taken a number of tangible steps to institutionalize 
operational energy improvements and avoid duplication across the 
Services and the military establishment through the sharing of 
knowledge. Our Budget team regularly participates at a senior executive 
level in Service budget reviews, Service POM reviews, Defense 
Acquisition Boards, Overarching Integrated Product Teams, and Initial 
Integrated Product Teams. OEPP also participates in Analysis of 
Alternatives Senior Advisory Groups to consider energy issues early in 
the acquisition process. Through our annual Budget Certification 
process, which certifies the adequacy of the budget to the Secretary of 
Defense for implementing the Operational Energy Strategy, we gain 
visibility into Service program objectives through a detailed review of 
all operational energy objectives. This ensures minimal duplicative 
efforts. We also interact regularly with the Services, including their 
energy offices, the Joint Staff, and the COCOMs. We have driven the 
consideration of operational energy into established DOD Decision 
Support Processes, including Joint Capabilities Integration Development 
System (JCIDS) and the Defense Acquisition Planning, Programming, 
Budgeting, and Execution process. Our office works with USD(Policy) to 
ensure operational energy is included during the Planning phase and in 
the Defense Planning Guidance, and the Quadrennial Defense Review.
    Through our DOE/DOD Memorandum of Understanding, we seek to 
leverage the complementary goals of DOD and DOE energy programs where 
it exists, and where it helps the DOD mission. We are collecting 
Operational Energy Lessons Learned to capture the valuable learning 
from forces deployed in-theater. Through the Defense Operational Energy 
Board (DOEB), co-chaired by the ASD(OEPP) and the Joint Staff Director 
of Logistics, and the Deputy DOEB, we communicate with the Services and 
receive Service input into our highest operational energy priorities.
    Our Requirements and Analysis team participates in milestone 
reviews for Acquisition Category (ACAT) I programs. Just this simple 
action has gone a long way to increasing OEPP recognition and creating 
a structure for ensuring the introduction of operational energy 
considerations into all the major DOD weapon systems programs.
    OECIF also helps institutionalize operational energy and we run it 
to share results across the Services. We fund innovative energy 
programs within the Services. We cement institutional buy-in by 
generally insisting that all proposals be vetted by a Service Energy 
Office. We also ensure the dissemination of innovation across military 
stovepipes by encouraging the programs to have multi-Service 
participation. Program reviews are also an opportunity to share 
research results.
            institutionalizing operational energy in policy
    In the long term, the Department must build operational energy 
considerations into the regular rhythm of how the Department operates. 
To begin with, the Secretary of Defense signed the Operational Energy 
Strategy Implementation Plan in March 2012 and identified seven 
targets:
    1.  Measure operational energy consumption;
    2.  Improve energy performance and efficiency in current operations 
        and training;
    3.  Promote operational energy innovation;
    4.  Improve operational energy security at fixed installations;
    5.  Promote the development of alternative fuels;
    6.  Incorporate energy security considerations into requirements 
        and acquisition; and,
    7.  Adapt policy, doctrine, professional military education, and 
        Combatant Command activities to include operational energy.
    The Department is making great progress implementing the strategy; 
further details are available in our Operational Energy Annual Report 
to Congress and budget certification reports, which are available on 
the OEPP Web site (http://energy.defense.gov/).
    In April 2014, the Acting Deputy Secretary of Defense Christine Fox 
issued DOD Directive 4180.01, ``DOD Energy Policy.'' As the 
Department's first overarching defense energy policy in over 20 years, 
this new directive provides a common energy framework to guide the full 
range of defense energy activities, including operational energy, 
facility energy, and energy-related elements of mission assurance. The 
directive also codifies responsibilities for implementing the energy 
policy across OSD, the Joint Staff, Combatant Commands, Military 
Departments and Defense Agencies. The directive establishes that ``It 
is DOD policy to enhance military capability, improve energy security, 
and mitigate costs in its use and management of energy.'' In support of 
these overarching goals, the policy directs the DOD to adapt core 
business processes--including requirements, acquisition, planning, 
programming, budgeting, mission assurance, operations, and training--to 
improve the Department's use and management of energy.
    The Department also issued other policies over the past year to 
support the operational energy mission. In January 2013, the Under 
Secretary of Defense for Acquisition Technology and Logistics released 
Department of Defense Directive 3000.10, ``Contingency Basing Outside 
the United States.'' In addition to outlining Department policy related 
to interoperability, construction standards, and other areas, the 
Directive specified the role of operational energy and identified a 
smaller logistics footprint as enabling more effective and capable 
contingency bases.
    In addition to the strategy, guidance, and policy set forth by my 
office and OSD, the Military Services have followed with their own 
initiatives. In the past year, the Army and the Air Force have updated 
their own energy strategies while the Marine Corps issued guidance for 
improving the incorporation of energy into their acquisition programs. 
Similarly, the Navy has moved out, leading the Department with 
efficiency upgrades to their legacy aircraft and propulsion innovations 
in their ships. In addition, working with OSD/Policy and the AT&L 
International Cooperation office, we have tracked international 
developments in this area, and encouraged consideration of operational 
energy in multinational security cooperation.
                               conclusion
    In November 2013, Secretary Hagel stated, ``DOD invests in energy 
efficiency, new technologies, and renewable energy sources at our 
installations and all of our operations because it makes us a stronger 
fighting force and helps us carry out our security mission.''
    Our vision to better manage the Department's use of energy will 
continue to improve military capability across all missions. As we 
adapt to threats and geopolitics shaped by energy, now is the time to 
drive long-term innovation and energy improvements into our core 
business processes, force structure, and planning to ensure we have the 
military we need to succeed in the future.
    Going forward, the Department is committed to addressing how energy 
shapes our capabilities and operations, as well as how it affect the 
missions the Department may be called upon to conduct. This past year, 
the Department has made great strides in reforming core business 
processes and decisionmaking, supporting current operations, and 
applying energy considerations to the development of the future force. 
All that said, institutional change within the Department is difficult, 
time consuming and not for the faint of heart; we appreciate this 
Committee's continued support of OEPP.

    Senator Durbin. Thank you.
    General Lewis.
STATEMENT OF BRIGADIER GENERAL KENNETH LEWIS, DEPUTY 
            DIRECTOR OF TRANS-REGIONAL POLICY AND 
            PARTNERSHIP STRATEGY, JOINT STAFF, J5
    General Lewis. Mr. Chairman, Senator Cochran, Senator 
Shelby, thank you for allowing me the opportunity to come speak 
today.

                             ARCTIC REGION

    The Arctic region is changing. The emergence of new 
challenges and opportunities in the region are demanding 
greater attention from Government and stakeholders.
    While significant uncertainty remains about the rate, 
extent, and pace of these changes, human activity in the Arctic 
is increasing and will likely continue.
    With more activity comes a potential of increased security 
challenges, but also it presents new opportunities. In planning 
the Armed Forces' future role in the Arctic, we see the opening 
of the region as an opportunity to work collaboratively with 
allies and partners to keep the Arctic a secure and stable 
region where U.S. national interests are safeguarded, the U.S. 
homeland is protected, and nations work together to address 
challenges.
    The Armed Forces' existing infrastructure and capabilities 
are sufficient to perform required missions in the Arctic in 
the near- to mid-term. This point must be emphasized, because 
some recent reporting, I think, has overemphasized changes in 
the security landscape.
    For example, some media reporting highlights exponential 
growth in the use of Arctic shipping lanes for global commerce. 
The present reality, however, is that an extremely small 
percentage, 1 to 2 percent of the total global shipping 
activity, occurs in the Arctic.
    As uncertain as the rate of the activity may be, we 
recognize that years from now, more activity is likely to lead 
to greater security and safety challenges. These uncertainties 
result in a difficult situation for DOD, where we must balance 
the risk of having inadequate capabilities and insufficient 
capacity with the cost of making premature and/or unnecessary 
investments.
    The view that competition for resources and boundary 
disputes will lead to regional conflict overlooks the fact that 
the Arctic is a region bounded by Nation States that are not 
only publicly committed to approaching Arctic issues with a 
common framework of international law, but these nations have 
demonstrated the ability and commitment to doing so for the 
last 50 years.
    This low-level threat in the region is reflected in our DOD 
strategy. Our strategic approach to the Arctic seeks to link 
goals with resources and activities in a manner that is 
consistent with a low-level threat and the uncertainties 
regarding the rate of increase in human activity, all the while 
taking practical physical realities into consideration.
    We seek to preserve freedom of the seas in the Arctic. This 
is strategically consistent with our global interest preserving 
all the rights, freedoms, and uses of the sea and airspace 
recognized under international law. Promoting navigational and 
overflight freedoms, whether in an increasingly accessible 
Arctic or in other maritime spaces, such as South China Sea, is 
vital to preserving global mobility of our Armed Forces and 
communicates to all the world that the United States is 
committed to upholding international norms and the rule of law.
    We continue to support the accession to the Law of the Sea 
Convention because it codifies the rights, freedoms, and 
issues, and uses the sea and airspace DOD, State, Coast Guard, 
and other Federal Departments and Agencies would like to 
preserve.
    Our Armed Forces are manned, trained, and equipped to be 
the away team, operating forward deployed for extended periods 
of time in some of the most austere environments in the world. 
The U.S. military supports and collaborates with domestic civil 
authorities, allies, and international partners in search and 
rescue, humanitarian assistance, and disaster relief. 
Establishing a foundation of cooperation in these areas, both 
internal and external to the U.S. Government, is vital to this 
success.
    In summation, we are optimistic in our assessment that 
increased human activity and accessibility in the Arctic will 
provide opportunities to work collaboratively, promote a 
balanced approach, improving human and environmental security 
in the region.

                           PREPARED STATEMENT

    In such a security environment, we have currently assessed 
our existing defense infrastructure and capabilities in the 
region are adequate, like I said, to meet the near- and mid-
term defense needs. But as with any region, capabilities will 
have to be reevaluated as conditions and regional activities 
change and any gaps will need to be addressed.
    So I thank you for the opportunity to appear this morning 
and look forward to your questions.
    [The statement follows:]
         Prepared Statement of Brigadier General Kenneth Lewis
    Mr. Chairman, Vice Chairman Cochran, distinguished members of the 
Defense Appropriations Subcommittee, thank you for the opportunity to 
appear before you this morning.
    The Arctic region is changing. This year, the Navy concluded in its 
Arctic Roadmap that ice conditions in the Arctic Ocean are changing at 
a more rapid pace than first anticipated in the first Arctic Roadmap in 
2009. The emergence of new challenges and opportunities in the Arctic 
is demanding greater attention from governments and stakeholders.
    While significant uncertainty remains about the rate and extent of 
changes in the region and the pace at which human activity will 
increase, human activity in the Arctic is increasing and will likely 
continue to increase. With increased activity comes the potential for 
increased security challenges, but also new opportunities. In planning 
the Armed Forces' future role in the Arctic, we see the opening of the 
region as an opportunity to work collaboratively with allies and 
partners to keep the Arctic as a secure and stable region where U.S. 
national interests are safeguarded, the U.S. homeland is protected, and 
nations work cooperatively to address challenges.
    The Armed Forces existing infrastructure and capabilities are 
sufficient to perform required missions in the Arctic in the near to 
mid-term. This point must be emphasized because some recent reporting 
has overemphasized the changes in the security landscape.
    For example, some media reporting highlights exponential growth in 
the use of Arctic shipping lanes for global commerce. The present 
reality, however, is that an extremely small percentage, between 1 to 2 
percent, of total global shipping activity occurs in the Arctic, and 
much of that activity is local fishing and destination shipping, 
meaning shipping from one area of the Arctic to another area of the 
Arctic. The small numbers of transits through the region are not 
necessarily preferred by the shipping industry due to added expense for 
icebreaking and other services and increased risk from less predictable 
weather. As uncertain as the rate of activity may be, decades from now 
more activity is likely to lead to greater security and safety 
challenges. These uncertainties result in a difficult situation where 
we must balance the risk of having inadequate capabilities or 
insufficient capacity with the opportunity cost of making premature 
and/or unnecessary investments.
    Various sources indicate there are significant undiscovered mineral 
and hydrocarbon resources in the region, and media reporting would 
indicate that a ``Wild-West, gold rush'' mentality exists with Arctic 
and non-Artie nations racing to stake claims to these resources. 
Additionally, it is widely reported that regional boundary and 
territorial disputes, the resolution of which inevitably impact 
jurisdiction over potentially valuable resources, may be a source of 
tension and conflict in the region.
    The view that competition for resources and boundary disputes will 
lead to regional conflict overlooks the fact that the Arctic is a 
region bounded by nation states that have not only publicly committed 
to approaching Arctic issues within a common framework of international 
law, but have demonstrated the ability and commitment to doing so over 
the last 50 years. This low level of threat in the region is reflected 
in DOD's strategy.
    Our strategic approach to the Arctic seeks to link goals with 
resources and activities in a manner that is consistent with the low 
threat environment and uncertainties regarding the rate of increase in 
human activity while taking practical fiscal realities into 
consideration.
    Activities to accomplish our goals run the range from national 
interests of global application to issues unique to the Arctic region.
    For example, we seek to preserve freedom of the seas in the Arctic 
as a necessary component and strategically consistent with our global 
interest in preserving all of the rights, freedoms, and uses of the sea 
and airspace recognized under international law. Promoting navigational 
and overflight freedoms, whether in an increasingly accessible Arctic 
or other maritime spaces, such as the South China Sea, is vital to 
preserving global mobility of our Armed Forces and communicates--to 
liked-minded partners and allies as well as states seeking to restrict 
freedom of the seas--that the United States is committed to upholding 
international norms and the rule of law. We continue to support 
accession to the Law of the Sea Convention because it codifies the 
rights, freedoms, and uses of the sea and airspace DOD, State, Coast 
Guard, and other Federal departments and agencies seek to preserve.
    Our Armed Forces are manned, trained, and equipped to be the ``away 
team,'' operating forward deployed for extended periods of time in some 
of the most austere environments in the world, Alaska's vastness and 
harsh conditions throughout the entire Arctic region, present us with a 
unique opportunity to enhance human and environmental security and 
safety as both a ``home team'' and an ``away team'' by supporting and 
collaborating with both domestic civil authorities and allies and 
international partners to support search and rescue or humanitarian 
assistance and disaster relief. Establishing a foundation of 
cooperation--internal and external to the U.S. Government--is vital to 
success for both an emergent humanitarian crisis and long term 
stability in the Arctic.
    While the most significant changes to the Arctic itself may be 
years away, we are currently well-postured with existing infrastructure 
and capabilities as well as a strategy to support our long-term 
planning efforts. Though we are presently well-postured, we are not 
idly waiting for the all the multi-year ice to recede. We are currently 
focused on improving sea ice and weather forecasting, enhancing domain 
awareness, and evolving communications and satellite capabilities. 
Progress in these areas is vital as these are necessary key enablers 
should increased presence and operations be required in the future.
    In sum, we are optimistic in our assessment that increased human 
activity and accessibility in the Arctic will provide opportunities to 
work collaboratively to promote a balanced approach to improving human 
and environmental security in the region. In such a security 
environment, we have currently assessed that existing defense 
infrastructure and capabilities in the region are adequate to meet 
near- to mid-term U.S. defense needs. As with any issue or activities, 
capabilities will need to be reevaluated as conditions and regional 
activity changes, and any gaps will need to be addressed and we will 
periodically reassess missions and supporting infrastructure needs in 
the Arctic.

    Senator Durbin. Thank you.
    Secretary Chiu.
STATEMENT OF DANIEL Y. CHIU, Ph.D., DEPUTY ASSISTANT 
            SECRETARY OF DEFENSE FOR STRATEGY AND FORCE 
            DEVELOPMENT
    Dr. Chiu. Thank you, Chairman Durbin, Senator Cochran, 
Senator Shelby. It is my great pleasure to have this 
opportunity to testify before you today on the effects of 
climate change on national security.

                         SEVERE WEATHER EVENTS

    As you well know, the Department of Defense's primary 
responsibility is to protect our national security interests 
around the world. And to do this, we need to consider all 
aspects of the global security environment and plan 
appropriately for potential contingencies and the possibility 
of unexpected developments both in the near and longer terms.
    It is in this context that the Department of Defense must 
consider the effects of climate change, such as sea level rise, 
shifting climate zones, and more severe weather events, and how 
these effects could impact our national security.
    Some of these effects are already being seen today on 
military bases, installations, and other DOD infrastructure, 
such as increased flooding from sea level rise and storm surge. 
We are also seeing the potential for decreased capacity of DOD 
properties to support training, as well as implications for 
supply chains, equipment, vehicles, and weapons systems that 
the Department buys.
    As a result, we are already adapting much of our 
infrastructure, including, for example, building more wind-
resistant structures, protecting water supplies, wells, and 
improving fire breaks.
    DOD is currently conducting, as well, a baseline study to 
be completed in late 2014 to identify what infrastructure is 
vulnerable to extreme weather events and sea level rise, so we 
can assure that these challenges are addressed appropriately.
    In the longer term, the impacts of climate change may 
alter, limit, or constrain the environments in which our 
military will be operating. For example, sea level rise may 
impact where and when we think about executing amphibious 
operations, while changing temperatures and lengthening seasons 
could impact the timing windows for operations overall.
    The effects of climate change may also compound instability 
in other countries and regions by affecting things like the 
availability of food and water, affecting human migration, and 
the competition for natural resources. This could create gaps 
in governance, creating instability, and can also provide an 
avenue for extremist ideologies and conditions that could 
foster terrorism.
    Therefore, as a Department, we are working to better 
understand how the impacts of climate change will affect our 
planning and operations in the U.S. and abroad.

                             CLIMATE CHANGE

    We are currently working to take into consideration the 
impacts of climate change in our longer term planning 
scenarios, so we can think about how it will affect our 
humanitarian assistance and disaster relief activities over 
time, look at our efforts to plan and enhance the capacity of 
partner militaries so that they can plan for and respond to 
natural disasters. And we are also working to address 
implications for potentially higher demands for defense support 
to U.S. civil authorities, due to extreme weather events.
    The effects of climate change are particularly acute in the 
Arctic region where diminishing sea ice will make the Arctic 
Ocean increasingly accessible. This is a decades-long dynamic, 
but we must monitor and account for it today.
    This is why Secretary Hagel released the Department of 
Defense Arctic strategy in November 2013, which, in support of 
the national Arctic strategy released earlier in 2013, seeks 
through U.S. leadership and collaboration to preserve an Arctic 
region that remains free of military conflict in which nations 
act responsibly and cooperatively, and where economic and 
energy resources are developed in a safe and sustainable 
manner.
    In order to do so, DOD will focus on ensuring security, 
support, and safety, and promoting defense cooperation, and 
will prepare for a wide range of challenges and contingencies 
that include consideration of Arctic contingencies.
    The Department currently assesses, as you have heard from 
the General, that the Arctic is a relatively low military 
threat environment and that existing and planned DOD 
infrastructure and capabilities in the region are adequate to 
meet current U.S. defense needs in the near- and mid-term 
future.
    We will continue to reevaluate capabilities and 
requirements as conditions and regional activity change, and 
will be prepared to address any changes or gaps that could 
emerge.
    Given the nature of climate change, in particular the 
Arctic, the United States response to these challenges requires 
a whole-of-Government approach, as well as international 
collaboration, both of which are the bedrock of our efforts on 
these issues.

                           PREPARED STATEMENT

    By taking a proactive approach to assessment, analysis, and 
adaptation, DOD can definitely manage the risks posed by the 
impacts of climate change and minimize the effects on the 
Department while continuing to protect our national security 
interests through strong leadership.
    Thank you again for this opportunity to speak with you, and 
I look forward to answering your questions.
    [The statement follows:]
                Prepared Statement of Dr. Daniel Y. Chiu
                              introduction
    The Department of Defense (DOD)'s primary responsibility is to 
protect our Nation's security interests around the world. This includes 
building security globally through assurance of allies, engagement with 
partners, and deterrence of adversaries; prevailing in conflicts should 
they arise; and supporting civil authorities and others around the 
world in times of emergency. To ensure DOD is adequately prepared to 
accomplish our missions, we need to consider all aspects of the global 
security environment and plan appropriately for potential contingencies 
and the possibility of unexpected developments in both the near- and 
longer-terms.
    As such, the Department tracks, analyzes, and considers a range of 
current and future trends and changes, including political-military, 
economics, demographics, technology, and the environment. All of these 
issue areas have the potential to significantly impact U.S. national 
security interests in both positive and negative ways. DOD must take 
into account these trends to ensure we are able to create and pursue 
opportunities when they serve our national interests and that we are 
ready for a wide range of challenges now and into the future.
    This is why climate change is included in the 2014 Quadrennial 
Defense Review. In particular, we noted that: ``The impacts of climate 
change may increase the frequency, scale, and complexity of future 
missions, including defense support to civil authorities, while at the 
same time undermining the capacity of our domestic installations to 
support training activities.'' The effects of climate change--such as 
sea-level rise, shifting climate zones, and more severe weather 
events--will have an impact on our bases and installations at home and 
overseas; on the operating environment for our troops, ships, and 
aircraft; and on the global security environment itself as climate 
change affects other countries around the world.
    While all projections contain a degree of uncertainty, the 
Department considers risk across a wide spectrum of possibilities to 
ensure DOD is appropriately prepared for the range of possible 
contingencies. In considering the effects of climate change, scientific 
data and studies are used to further refine projections and planning. 
The Department also continues to update and assess this work to ensure 
that changes are taken into consideration so that plans and 
capabilities can be adapted, when needed.
Near Term: Infrastructure, Training, and Testing
    The National Climate Assessment, released by the White House 
earlier this month, noted that the world's climate is already rapidly 
changing. Certain types of weather events are already occurring more 
frequently and intensely, including heat waves, heavy downpours, 
hurricanes, floods, and droughts. Glaciers and Arctic sea ice are 
melting at a relatively rapid rate, sea levels are rising, and oceans 
are becoming warmer and more acidic. Moreover, scientists predict that 
some of these changes will increase in frequency, duration, and 
intensity over the next 100 years.
    Some of these current effects of climate change are being seen on 
the military bases, installations, and other infrastructure that DOD 
manages. Our infrastructure serves as the staging platform for the 
Department's national defense and humanitarian missions, and the 
natural landscape supports military combat readiness by providing 
realistic combat conditions and vital resources to personnel. For 
example, an installation may need a forest or desert landscape for 
maneuvers, coastal waters for amphibious assault training, or wetlands 
to prevent flooding and erosion. The effects of climate change will 
have serious implications for the Department's ability to maintain both 
its infrastructure and the landscape around it, and to ensure military 
readiness in the future.
    Our coastal installations are already experiencing increased 
flooding and damage from sea-level rise and increased storm surge; 
longer-term impacts could include increased inundation and erosion. 
Rising temperature and extreme weather will increase building heating 
and cooling demand, raising installation energy requirements and 
operating costs. Those conditions will also increase maintenance 
requirements for runways and roads, as well as cause disruption to and 
competition for reliable energy and fresh water supplies. Thawing 
permafrost and melting sea ice are damaging our infrastructure in 
Alaska and the Arctic region. Changed disease vector distribution, 
particularly exposure to diseases in regions in which they are not 
routinely encountered, will increase the complexity and cost of on-
going disease management efforts, and may have acute and long-term 
impacts on personnel health and safety.
    The Department also needs to be able to train our forces to meet 
the evolving nature of the operational environment by training in the 
field environment to achieve and sustain proficiency in mission 
requirements. The Department conducts testing in the field environment 
in anticipation of the military's use of weapons, equipment, munitions, 
systems, or their components. As such, access to the land, air, and sea 
space that replicate the operational environment for training and 
testing is critical to the readiness of the Force.
    The impacts of climate change may decrease the capacity of DOD 
properties to support current testing and training rotation types or 
levels. Some training and testing lands may lose their carrying 
capacity altogether. Rising temperatures could lead to an increased 
number of ``black flag'' (suspended outdoor training) or fire hazard 
days. Increased dust generation during training activities may 
interfere with sensitive equipment, resulting in greater repairs, or 
may require more extensive dust control measures to meet environmental 
compliance requirements. These conditions could also lead to increased 
health and safety risks to the Department's personnel.
    Climate change also impacts may affect the supplies, equipment, 
vehicles, and weapons systems the Department buys, where and from whom 
we buy them, how they are transported and distributed, and how and 
where they are stockpiled and stored. Changes to the operating 
environment may require changes to operational parameters for current 
and planned weapons and equipment, resulting in increased associated 
maintenance requirements or requirements for new equipment.
    Environmental changes may introduce supply-chain vulnerabilities, 
reducing the availability of or access to the materials, resources, and 
industrial infrastructure needed to manufacture the Department's weapon 
systems and supplies. They may also cause the interruption of shipment, 
delivery, or storage and stockpile of materials or manufactured 
equipment and supplies. Many major corporations have recognized the 
potential effects of climate change on their operations and are 
aggressively pursuing manufacturing/supply resiliency efforts. As 
appropriate, the Department will seek refinements to existing processes 
and develop new climate-specific plans and guidance.
    Because of these current and ongoing concerns, the Department 
initiated in 2013 a review of existing directives, policies, manuals, 
and associated guidance documents and criteria to identify which ones 
should incorporate considerations of a changing climate. The initial 
screen reviewed 58 documents and identified 28 policies, programs and 
procedures for update; five have already been updated, all dealing with 
installations. During 2014, the Department will work within the 
existing review and update cycle to establish a plan for incorporating 
appropriate consideration of climate change into the relevant 
documents.
    Many infrastructure managers are already adapting to changing 
climate factors. Reported rebuilding efforts after extreme storms 
include upgrading to more wind-resistant structures, burying utility 
lines underground, changing storage locations for chemicals used in 
low-lying wastewater treatment plants, protecting water supply wells, 
and removing vulnerable trees. In preparation for the possibility of 
more wildfires, installations reported preparing better firebreaks and 
making timber stand improvements to reduce fire fuel loads.
    The Department has updated our master planning criteria for 
installations to require the consideration of climatic conditions, as 
well as mandating the consideration of changing climate conditions when 
designing buildings, including potential increased heating or cooling 
requirements. We also issued a Floodplain Management Policy in February 
2014 that establishes requirements to minimize risks when military 
assets must be located within flood plains.
    The Department is exploring the expansion of applications of risk 
management schemes already in use, primarily within the Defense 
Critical Infrastructure Program. Decisions on where and how to locate 
future infrastructure will become increasingly reliant on robust risk 
management processes that account for dynamic factors associated with 
the effects of climate change. While the initial modifications to risk 
management methodologies are focused on critical infrastructure, it is 
anticipated that the Department will utilize them across all 
decisionmaking in the future.
    The Department has initiated several research and survey efforts to 
more fully identify and characterize vulnerabilities, impacts, and 
risks posed by climate change. The Department is implementing a phased 
installation-level vulnerability assessment approach to: develop 
methodologies for conducting consistent screening-level vulnerability 
assessments of military installations world-wide (starting with coastal 
and tidal installations); leverage recent scientific advancements 
regarding coastal assessment; and provide a platform to build upon 
prior to conducting more comprehensive and detailed assessments, 
whether coastal installations or otherwise.
    A screening level survey assessment tool was piloted in the Fall of 
2013 and was deployed in 2014 to assess current installation-specific 
vulnerability to the impacts of climate-related events. Data from these 
screening-level assessments will be used to identify areas and 
installations where more detailed vulnerability assessments may be 
needed. The Department is using a whole-of government approach to 
develop recommendations on regional sea-level rise for use in more 
detailed coastal vulnerability and impact assessments of military 
installations worldwide, to ensure consistency in conducting these 
assessments.
    As climate science advances, the Department will regularly 
reevaluate climate change risks and opportunities in order to develop 
policies and plans to manage its effects on the Department's operating 
environment, missions, and facilities. Research organizations within 
the Department, including the Strategic Environmental Research and 
Development Program (SERDP), are planning and completing studies to 
characterize climate change impacts in specific regions of the world 
and develop and pilot vulnerability assessment and adaptation 
methodologies and strategies.
    Research to develop coastal assessment methods is scheduled for 
completion during 2014. Work in other regions is still underway, 
including research designed to understand how increased temperature 
trends and changes in the fire regime in the interior of Alaska will 
impact the dynamics of thawing permafrost and the subsequent effects on 
hydrology, access to training lands, and infrastructure; and how 
changes in storm patterns and sea levels will impact the Department's 
Pacific Island installations, including their water supplies.
    The Department is actively conducting research that will support 
further integration of climate change into our considerations. This 
includes projects that: assess potential changes in the intensity, 
duration, and frequency of extreme precipitation events, including 
changes in the timing and intensity of snowmelt and subsequent run-off 
events; include development of adaptive decision frameworks; and 
address understanding the characteristics of species that are either 
conservation reliant or adaptable to potential changes in climate and 
human activities.
Longer-Term: Plans and Operations
    The longer-term impacts of climate change may alter, limit, or 
constrain the environments in which our military will be operating. For 
example, sea level rise may impact the execution of amphibious 
landings; changing temperatures and lengthened seasons could impact 
timing windows for operations; and increased frequency of extreme 
weather could impact assumptions about flight conditions that could 
affect intelligence, surveillance, and reconnaissance capabilities.
    The impacts of climate change may aggravate existing or trigger new 
risks to U.S. interests. Maintaining stability within and among other 
nations is an important means of avoiding full-scale military 
conflicts. The impacts of climate change may cause instability in other 
countries by impairing access to food and water, damaging 
infrastructure, spreading disease, uprooting and displacing large 
numbers of people, compelling mass migration, increasing competition 
for natural resources, interrupting commercial activity, or restricting 
electricity availability.
    As Secretary of Defense Chuck Hagel said at the 2013 Halifax 
International Security Forum, ``Climate change does not directly cause 
conflict, but it can significantly add to the challenges of global 
instability, hunger, poverty, and conflict. Food and water shortages, 
pandemic disease, disputes over refugees and resources, more severe 
natural disasters--all place additional burdens on economies, 
societies, and institutions around the world.''
    These developments could undermine already-fragile governments that 
are unable to respond effectively or challenge currently-stable 
governments, as well as increasing competition and tension between 
countries vying for limited resources. These gaps in governance can 
create an avenue for extremist ideologies and the conditions that 
foster terrorism.
    As a Department, we are working to better understand how the 
impacts of climate change will affect plans and operations in the 
United States and abroad. The Department's unique capability to provide 
logistical, material, and security assistance on a massive scale or in 
rapid fashion may be called upon with increasing frequency. We are 
looking to identify early warning indicators for those areas critical 
to DOD's mission set, as well as conduct systematic regional and 
localized impact assessments to identify trends and where our resources 
should be focused.
    The Department will be monitoring these developments and deciding 
which situations will require intervention based on U.S. security 
interests--either preemptively through security cooperation and 
capacity building, or through stability operations if conditions 
escalate. We are exploring ways for the combatant commands to include 
in their missions non-combat support to address serious climate change-
related U.S. national security vulnerabilities and to include climate 
considerations in their theater campaign plans.
    We are currently working to integrate the impacts of climate change 
into our longer-term planning scenarios, which articulate a range of 
future challenges that U.S. military forces must be prepared to 
confront. These scenarios support deliberations by DOD senior 
leadership on strategy and planning, programming, budgeting, and 
execution (PPBE) matters, including force sizing, shaping, and 
capability development.
    We also plan to more fully integrate the impacts of climate change 
into our humanitarian assistance/disaster relief and other exercise 
plans, and are working to enhance the capacity of partner militaries 
and civil response readiness groups to plan for, and respond to, 
natural disasters. As noted in the 2014 QDR, ``Climate change also 
creates both a need and an opportunity for nations to work together, 
which the Department will seize through a range of initiatives.''
    We also hope to more systematically harness resources beyond the 
traditional combatant command structure. This included the National 
Guard, and its State Partnership Program, service engineering units 
such as the U.S. Army Corps of Engineers and Naval Facilities Command, 
and OSD-led programs such as the Defense Environmental International 
Cooperation Program and the Strategic Environmental Research and 
Development Program.
    To the extent that we are engaged in the construction of military 
and civilian infrastructure for partner nations, we are working to 
include consideration of climate change impacts on all our projects, 
ranging from site selection to resiliency planning.
    Here in the United States, State and local governments responding 
to the effects of extreme weather may seek increased defense support to 
civil authorities. The heightened demand, particularly on the National 
Guard and Reserve Component, could impact their availability for other 
contingencies or operations. We are in the process of exploring these 
implications and finding the right balance to ensure that our domestic 
needs can be met.
The Arctic
    The effects of climate change are particularly acute in the Arctic 
region. Profound changes are already occurring that are having and will 
continue to have significant and long-lasting consequences. Over the 
coming decades, the Arctic will remain a remote, isolated, and complex 
environment; but over time, diminishing sea ice will make the Arctic 
Ocean increasingly accessible and used by Arctic as well as non-Arctic 
nations. At the same time, land access--which depends on frozen ground 
in much of the Arctic--will diminish as permafrost thaws.
    Although some recent media reporting overstates the nature of 
current human activity and potential for military conflict in the near 
term, the U.S. Government, including DOD, must account for and closely 
monitor the long-term dynamics in the Arctic. Regardless of the rate 
and scale of change, we must be ready to contribute to national efforts 
in pursuit of strategic objectives in the region.
    In response to these changing dynamics, the Department released a 
DOD Arctic Strategy in November 2013. The DOD Strategy supports the 
overarching national approach to the Arctic, embodied in the National 
Strategy for the Arctic region (released in May 2013): advancing U.S. 
security interests, pursuing responsible Arctic region stewardship, and 
strengthening international cooperation.
    In accordance with the National strategy, the DOD Strategy seeks to 
preserve an Arctic region that is free of conflict, in which nations 
act responsibly and cooperatively, and where economic and energy 
resources are developed in a sustainable manner. In order to do so, we 
will ensure security, support safety, promote defense cooperation, and 
prepare for a wide range of challenges and contingencies.
    The DOD Strategy recognizes that the U.S. Government response to 
changes in the Arctic requires a whole-of-government approach. In terms 
of preserving security, the U.S. Coast Guard in particular faces 
distinct near-term challenges. DOD continues to seek opportunities to 
coordinate our responses with the Coast Guard to leverage existing 
resources and avoid duplication of effort. We also continue to prepare 
ourselves to provide defense support for civil authorities when 
directed.
    Our Arctic strategy will enable us to take a balanced approach to 
improving human and environmental security. Our challenge is to balance 
the risk of having inadequate capabilities or insufficient capacity 
appropriate for this changing region with the opportunity cost of 
making premature and/or unnecessary investments. We assess that the 
Arctic is a relatively low threat environment, and that existing DOD 
infrastructure and capabilities in the region are adequate to meet 
current U.S. defense needs in the near and mid-term future.
    Capabilities and requirements will need to re-evaluated as 
conditions and regional activity change, and any gaps will need to be 
addressed. Given the low potential for armed conflict in the region, a 
buildup beyond what is required for existing DOD missions could send 
the wrong signal about our intentions for the region. We will continue 
to train and operate routinely in the region as we monitor the changing 
environment, revisit threat assessments, and take appropriate action as 
conditions change.
    Given the nature of the Arctic, our approach to the region requires 
more than just interagency cooperation, it requires international 
cooperation. As we highlight in the 2014 QDR, relationships with allies 
and partners are important enablers for meeting our security and 
defense commitments. Our strategic approach to the Arctic reflects the 
relatively low level of military threat in a region bounded by nations 
that have not only publically committed to working within a common 
framework of international law and diplomatic engagement, but have also 
demonstrated the ability and commitment to do so.
    We engage in frequent consultations with our Arctic partners, 
including through the Arctic Council, Northern Chiefs of Defense 
conference, the Arctic Security Forces Roundtable, and in Service-to-
Service dialogues and exercises. Russia, one of five coastal Arctic 
states, has historically played a collaborative role in these forums. 
Although our near-term cooperation with Russia has been impacted by 
Russia's ongoing intervention in Ukraine, we continue to work with 
other Arctic partners and remain committed to the long-term objectives, 
approaches, and capabilities outlined in the Arctic Strategy.
              interagency collaboration on climate change
    Partnerships are needed to fully ensure the Department's mission is 
sustainable given the effects of climate change. The Department cannot 
effectively assess its vulnerabilities and implement adaptive responses 
at its installations if neighbors and stakeholders are not part of the 
process. The Department's decisions and those of neighboring 
communities are intrinsically interconnected. Aspects of our mission, 
such as Force deployment, may be affected by assets outside our 
control, such as transportation infrastructure.
    Understanding the complexities and uncertainties of climate change 
require a whole-of-government approach as well. Therefore, the 
Department already participates in nationwide efforts such as the U.S. 
Global Change Research Program, including the National Climate 
Assessment. It also partners with individual agencies such as the 
National Oceanic and Atmospheric Administration on, for example, the 
development and operational implementation of a national Earth System 
Prediction Capability.
    The Department is also represented on interagency climate change 
councils and working groups and will continue to participate in Federal 
climate partnerships and other interagency processes. The Department, 
through the Air Force Weather Agency, contributes earth-space 
environmental data, receiving nearly 500,000 weather observations and 
satellite-derived wind profiles each day and sharing these data with 
the National Climatic Data Center and the Navy's Fleet Numerical 
Meteorological and Oceanographic Center.
    Climate change is an inherently global problem, and will require us 
to work closely with our allies, partners, and other countries across 
the world. As such, the State Department is leading our efforts to 
engage with the international community on these issues in multilateral 
forums and in bilateral relations. DOD is collaborating with and 
supporting the State Department in many of these initiatives, and we 
are continuing to develop new mechanisms and avenues for cooperation.
                               conclusion
    The effects of the changing climate affect the full range of 
Department activities, including plans, operations, training, 
infrastructure, acquisition, and longer-term investments. The 
direction, degree, and rates of the physical changes will differ by 
region, as will the effects to the Department's mission and operations. 
By taking a proactive, flexible approach to assessment, analysis, and 
adaptation, the Department can keep pace with the impacts of changing 
climate patterns, minimize effects on the Department, and continue to 
protect our national security interests.

    Senator Durbin. Thank you very much.
    I would like to address the first question to Secretaries 
McGinn and Morehouse.
    As I have observed over time in Congress and in this 
position, our procurement process is slow, deliberate, to make 
certain that we don't make any rash decision, which results in 
a waste of funds, or an investment that truly doesn't serve our 
Nation.
    Unfortunately, the free market system--I shouldn't say 
``unfortunately,'' but in contrast, the free market system is 
dynamic. Things change dramatically and quickly. And the 
marketplace decides what are good ideas and bad ideas.
    It wasn't that long ago that we would go to the Senate 
floor and debate at length whether we could ever reach the 
point where we increased the miles per gallon of the vehicles 
we drive. Now take a look around you. We have luxury cars being 
sold as hybrids. We have increased fuel efficiency in the 
commercial and free market space.
    My question to you is: The translation between these energy 
efficiency improvements in the free-market private sector and 
whether or not we are open to receiving and capitalizing on 
this new technology and these new inventions when it comes to 
the area of energy efficiency.
    Secretary McGinn.

                     ENERGY EFFICIENCY INITIATIVES

    Mr. McGinn. Yes, Mr. Chairman. As I mentioned, last week I 
was out at Camp Pendleton, fortunately, before the wildfires 
that were pretty serious out there, for the Marine Corps 
Expeditionary Forward Operating Base, in which we bring these 
good ideas from very innovative companies and some older, 
established companies to Marines with energy technologies that 
are new that can help to harvest energy from a Marine patrol, 
that can use the sun to recharge batteries, that can capture 
the waste heat that is coming off a generator powering a 
forward operating base.
    So we try to be as proactive as we possibly can to, first 
of all, be aware of the energy innovations that are out there, 
that are coming, whether it is for energy efficiency or for 
alternative forms of energy, and then to create opportunities 
for those companies to actually do business with the Department 
of the Navy, and indeed, the Department of Defense.
    We do, as you pointed out, have a very slow and complex 
process, a conservative culture, if you will, for procurement. 
But where it makes sense in smaller quantities initially, but 
then expanding rapidly where this technology is proven, we are 
in fact trying to seize these technologies.
    I would conclude by saying that we also have what I would 
call a two-way street, in terms of energy technology and, 
indeed, technology across-the-board. I call it ``spin in'' and 
``spin out.'' We look for commercial off-the-shelf 
opportunities because we can get them faster. We don't have to 
spend a lot of time and development dollars getting them to 
where they are useful to our warfighting capabilities.
    But we also, inside the Department, do a lot of great work 
to develop initially unique military technologies. GPS is often 
used as an example, or the Internet, and, indeed, I would add 
to that list nuclear power.
    But we also want to make sure that we are harvesting the 
good ideas that are out there.
    Senator Durbin. So I don't want to read too much into what 
you just said, or beyond what you wanted to say, but it sounds 
to me that at certain levels, you can translate successful 
private sector commercial development into applications in the 
military. But I also note that you may have inferred that when 
you get to a higher level, this becomes more difficult, because 
of the procurement process. Is that accurate?
    Mr. McGinn. It is. We can initially grab good technology at 
smaller dollar levels in smaller quantities. But to get it into 
a program of record, it takes longer.
    Senator Durbin. That troubles me. It was 10-plus years ago 
that the U.S. Army decided they needed a new communication 
standard on the battlefield, and that they had to really try to 
come up with specs for this new standard, whatever this needed 
to be. Ten years ago, they couldn't have dreamed of this, and 
we carry it around our pockets.
    It strikes me that as they are trying to plod their way 
into some new level of technology, the world has just passed 
them by.
    We need to talk about how we can avoid this. This is a 
waste of effort and a waste of taxpayer dollars to be stuck in 
a procurement system that is not flexible enough to seize on 
new technologies and new ideas.
    Secretary Morehouse, any ideas?
    Mr. Morehouse. Yes, Senator. Just to agree with what 
Secretary McGinn said, but perhaps provide a slightly different 
twist on this, I would say that the collaboration on technology 
between the Defense Department and the private sector is very 
broad and very robust, whether we are talking about the 
relatively small-scale systems such as what Secretary McGinn 
talked about, the system that soldiers carry out into the field 
with them--generators, battery chargers, shelters for forward 
operating bases--relatively small-scale programs.
    We can adopt those technologies very quickly, and we can 
turn those programs over very quickly. So if you look at the 
pace of change in the integration of technology of programs at 
that level, it is really quite quick. When you start looking at 
much larger programs such as warships, Joint Strike Fighters, 
those sorts of things, they take much longer to develop.
    The technological collaboration is there, but these 
programs take much longer to go from concept to actual 
acquisition and become programs of record.
    So I wouldn't say that the collaboration is necessarily not 
there, but the requirements of development process and the 
acquisition process--the larger and the more complex the 
systems become, the longer those processes take.
    Senator Durbin. Someone in the Pentagon once told me that 
if Congress and the American people knew what it cost to move a 
gallon of fuel into Afghanistan, they would understand why this 
conversation is about taxpayer dollars, national security, and 
literally life and death. Anybody have any numbers they can 
quote us?

                     EXPEDITIONARY FUEL NEEDS/COSTS

    Mr. McGinn. We have had numbers in the past, in the height 
of the Afghanistan war, that if you go to a very remote forward 
operating base, Army or Marine forward operating base, and you 
multiply all of the costs of getting a gallon of fuel to that, 
it costs as high as $400 a gallon of crude. That is from where 
we buy it originally, the cost of transporting it in a truck, 
or in some cases in a helicopter, and all of the costs 
associated with protecting those logistic lines.
    That is why when we do something like the forward operating 
base the Marine Corps is doing, we try to cut down--the 
reduction of a gallon of gasoline, or diesel, I should say, to 
power a generator at a foreign operating base has wonderfully 
compounding effects up the supply chain. It saves a lot more 
than just that one gallon of diesel.
    And as you point out, we pay a price in treasure as well as 
in blood, because those missions of protecting fuel convoys are 
some of the deadliest in Iraq and Afghanistan.
    Senator Durbin. The first Illinois National Guard unit that 
I visited in Kuwait on their way into Iraq, they were driving 
fuel tanker trucks. And although to the civilian side of the 
world, it may seem like a mundane assignment, it was literally 
a life-and-death assignment, not only for transporting the fuel 
but the people waiting to receive it so that they could be 
protected with the fuel and equipment that it energized.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming the distinguished panel of witnesses to our hearing 
today.
    Are there any changes that you are aware of that the 
military has actually promoted or implemented that have had 
specific savings in terms of environmental consequences? You 
mentioned Iraq and the situation there. But in our training 
here stateside, where we probably have a better opportunity to 
monitor and measure and make decisions about things like this, 
are there any new things that have been implemented, new 
procedures implemented, that you can point to that reflect a 
greater awareness of any environmental consequences of training 
and operations here within the continental United States?

            ENVIRONMENTAL IMPACTS OF TRAINING AND OPERATIONS

    Mr. McGinn. One of the big advances that has happened--it 
has been happening for a number of years--is our increasing use 
of simulation. You can have a carrier battle group or 
amphibious readiness group literally tied to the pier and not 
have to go to sea to do the kind of sophisticated command-and-
control training that traditionally we have always had to go to 
sea to do.
    What this means is that when that amphibious readiness 
group or carrier battle group goes to sea, they are operating 
at a much higher level. They know how to communicate. They know 
how to coordinate their efforts.
    The same thing is true for our aviators where we are not 
trying to substitute flying time with simulators, but we get so 
much more warfighting readiness and training capability when 
they do fly because they have been working through the process 
in the simulators.
    Senator Durbin. Senator Shelby.
    Senator Shelby. Thank you.
    You realize, as we all do, that we have discovered a lot of 
gas in this country, thank God, and a lot of oil, and a lot 
more potential. We could be soon an exporter of gas, if not an 
exporter of oil. We are not quite there.
    But it is not how much you have. It is how much you use and 
how efficiently you use things.
    What are you doing, specifically, as far as efficiency is 
concerned, because we could give you an open-ended account, 
which we can't--we could have at one time, maybe. But the cost 
of energy for the Department of Defense is tremendous. I 
haven't got that exact dollars, but I can get it from the 
staff.
    But how can we be more efficient? We know that $400 a 
gallon end-user in Afghanistan, that doesn't reflect the 
initial cost. It reflects getting it to a remote area and 
transportation and everything.
    And we will always have those kinds of challenges, because 
when we project force, it is generally not in an urban area. It 
is generally not where we have railroads and ports and four-
lane highways or six-lane highways waiting for us, and 
pipelines waiting for us.
    So what are you doing as far as real efficiency, and what 
has Defense done to mark that, like the last 4 years, in this 
administration, Mr. Secretary?

                     ENERGY EFFICIENCY INITIATIVES

    Mr. McGinn. Senator, we are attacking efficiency vigorously 
in two ways. One with the insertion of new technologies that 
are inherently more efficient. Putting stern flaps on the back 
of our ships, is one example. I mentioned the two ships, 
America and Makin Island.
    But the other equally powerful dynamic for getting 
efficiency is culture, just really letting our sailors and 
marines understand that energy is a warfighting necessity and 
that we can get more fight for less fuel, if we are wise in how 
we use the equipment that we actually have today.
    As you point out, we have a blessing now in fossil fuel 
extraction that is going to help this country with our balance 
of payments, our economy, literally, our national security, for 
many years. But we want to make sure that as we are succeeding 
in doing that, that we use the time and these blessings of 
these resources wisely, so that when we come up 5, 10, 15, 20 
years out in the future, we don't find ourselves looking back 
saying, ``Gee, I wish we would have done more with energy 
efficiency technology or greater energy awareness, and our 
soldiers, sailors, airmen and marines,'' but rather we are 
going to be using every gallon of liquid fuel, every kilowatt 
hour of electricity, to squeeze the absolute maximum 
warfighting readiness and quality of life out of those units of 
energy.
    Senator Shelby. How can you recommend, and how can we help, 
to reform the procurement process that Senator Durbin talked 
about--it seems like it is antiquated--and put in some 
principles that are used every day by business and the 
marketplace.
    We have end-users of energy, they may not buy quite as 
much, but they buy a lot of energy. And their procurement 
processes are flexible. They have to react to the dynamic 
marketplace, as Senator Durbin alluded to.
    Mr. McGinn. I would say that the way to seize emerging 
technologies that sure makes sense for any aspect of our 
Department's mission is to create a fund that would be similar 
to a venture fund, not as perhaps early stage technology.
    But as you well know, especially on this committee, just 
about every dollar is spoken for in the budget. And creating 
some funds that can be used to get the procurement of that 
technology that saves energy or produces better warfighting 
capability would be one way to go.

                                 ARCTIC

    Senator Shelby. Well, without energy, we are not going to 
project force. We are not going to run helicopters. We are not 
going to run fighter-bombers. We are not going to run 
submarines. We are not going to run ships. That is a given, 
fundamentally.
    It was brought up, the seas will begin to rise. A lot of 
people project that, and so forth. And we talk about the 
Arctic. Of course, we have a Senator here from Alaska who knows 
a lot more about that than most of us do, and the impact there.
    There are minuses and pluses everywhere. Norfolk, that was 
referenced, that big naval base, very important there.
    But as it thaws up in the Arctic, in the Bering Sea and 
everything, that is going to open up possibilities of huge 
hydrocarbons that we haven't tapped before, would it not, for 
better or worse?
    Dr. Chiu.
    Dr. Chiu. Senator, that is correct. There are significant 
opportunities as the Arctic warms and changes. Obviously, we 
have to balance that against the challenges as well. But I 
think that you are correct, there are both opportunities and 
challenges there.
    Senator Shelby. But Russia is very cognizant of all that, 
are they not?
    Dr. Chiu. Yes, sir.
    Senator Shelby. They realize that there are going to be 
huge hydrocarbon opportunities, or at least they believe there 
are in the area.
    And we shouldn't fall behind in that area, should we, 
Doctor?
    Dr. Chiu. That is correct. So we are absolutely monitoring 
that situation, particularly with Russia. Russia has paid a lot 
of attention, is investing a lot of money in its Arctic 
structure.
    Senator Shelby. Well, we shouldn't just monitor it. We 
should be proactive in the area, should we not?
    Dr. Chiu. Agreed, sir. So we are seeking to do that by, in 
particular, ensuring, as the General has mentioned before, that 
the basic laws and norms with regard to freedom of the seas and 
of territoriality are being well-respected in those regions.
    The one thing that I would just emphasize on this 
particular point is, as we talk about being proactive and not 
falling behind in any way, which I agree is absolutely where we 
need to be, is we do need to balance that against the timeframe 
of the changes that we are seeing in the Arctic.
    This really is, even with as concerned as we are about ice 
melt and sea level rise at this time, this really is a decades' 
long process that we are seeing. And so should we be absolutely 
acutely paying attention to this because, by the way, these 
capabilities and structure require a long lead time----
    Senator Shelby. We have to be cognizant of the danger, but 
also of some opportunities it could possibly bring to offset. 
Am I right?
    Dr. Chiu. Yes, sir. I think that is exactly right. And 
balancing that in terms of finding the right time to make those 
investments appropriate to the changes----
    Senator Shelby. Do you have any judgment today as to the 
oil and gas potential of the Arctic area?
    Dr. Chiu. I don't have that figure with me, but I know that 
there are estimates.
    Senator Shelby. It would be tremendous. More than we ever 
dreamed, perhaps?
    Dr. Chiu. It could be. I don't know, sir.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I have to admit 
that my heart has skipped a beat in pure delight that a Senator 
from the South, Alabama, has been talking about the Arctic. I 
feel like sometimes I am a one-trick pony. I am the only one 
talking about Arctic.
    Senator Shelby. What they produce up there affects us all.
    Senator Murkowski. Sure it does.

                       OIL AND GAS IN THE ARCTIC

    Senator Shelby. It is oil and gas. That is a commodity.
    And that is why I have supported what you have tried to do 
up there for years.
    Senator Murkowski. And I appreciate the questions that are 
asked, because they are very, very pertinent to the discussion 
this morning when we talk about energy and our energy security 
from a defense perspective.
    Senator Shelby, you asked about the amount. It is estimated 
that about 20 to 22 percent of the world reserves of oil and 
gas could be in the Arctic. Of course, that doesn't necessarily 
mean they are recoverable. But the understanding in terms of 
the resources that are there is huge.
    Senator Shelby. What was not recoverable 30 to 40 years ago 
is being recovered today. Technology changes.
    Senator Murkowski. Technology has changed in a dramatic 
way.
    Senator Shelby. Absolutely.
    Senator Murkowski. But it does present opportunities. It 
clearly presents challenges.
    I would recommend to all of you, if you have not seen it, 
the GAO report that came out this week. I had requested it, 
along with colleagues on the House side, to look exactly at 
where we are in terms of preparedness when it comes to the 
Arctic and our opportunities as a Nation to take over the 
Arctic Council next year.
    The report came back and said what I think most of us have 
known, that we are behind. We are behind just in our own 
preparedness. Not necessarily from a defense perspective, but 
just in terms of what we are doing as a country.
    I would agree with you, Dr. Chiu, there is a lag there. But 
I also know how long it takes to build an icebreaker. I also 
know how long it takes to move initiatives through the 
appropriations process, get them all the way up the chain and 
get something moving. So I continue to press on the urgency.
    We recognize that we have limited infrastructure in the 
Arctic, limited support facilities. That is a given. It 
requires significant energy just to get to where you need to 
get at the top of the world there.
    We also look at what the administration's pivot to the 
Pacific means in terms of just expanded areas. You have to 
assume, then, that we are talking about increased energy needs.

                  MULTI-ENVIRONMENT ENERGY INITIATIVES

    Mr. McGinn, these are two very different operating 
environments, the Pacific region and then the Arctic. When you 
look for ways to be energy efficient and reduce energy uses, 
how much do you focus on this multi-environment capability?
    Mr. McGinn: We now know, Senator, that there are demands 
that are driven by operating in different environments, and we 
understand clearly that we have to be ready to operate in all 
of them.
    We adjust our investments, if you will, over time, 
depending on where we see the most compelling need at, let's 
say, a timeline of about the next 5 years or something like 
that.
    But having, during the dark days of the Cold War, operated 
up in the very, very northern reaches of the Pacific, I 
personally can understand that it is a very demanding 
environment. It is one that we have proven the ability to 
operate. We still send ships up there. We operate in a joint 
context with our Air Force and Army counterparts based in 
Alaska and across that northern Rim of the Pacific.
    Senator Murkowski. As you acknowledge, it is challenging, 
but it is, certainly, doable. We have been doing it for a long, 
long time, and I think exceptionally so.
    Mr. Morehouse, I wanted to ask you about a study that your 
office was charged with overseeing. This came out of last 
year's defense authorization bill. DOD was directed to carry 
out a study to assess the feasibility of small modular reactors 
(SMRs) of less than 10 MW.

                         SMALL MODULAR REACTORS

    I happen to think that these SMRs are a good thing. I think 
they can assist in some of our more remote areas. Eielson Air 
Force Base is a perfect example of an installation that is just 
geographically strategic, unlike most around the world, not 
only with its location sitting up there in the interior of 
Alaska, poised to be able to respond in a way that most can't, 
but you have unparalleled training grounds in the air and on 
ground. But they suffer from the daily reality of very high 
energy costs in an area where you have to be able to keep warm.
    It has been suggested, following a study, not only the one 
that you were charged with overseeing, but other studies, that 
the next step with these SMRs is to explore site-specific 
contracting operations between DOD and the utilities. I raised 
this issue about SMRs and the applicability of some of our 
military installations with Mr. Shaffer, who is with the 
Defense Research and Innovation offices. We had him before the 
committee last week.
    He indicated it is still expensive. We understand that. But 
I guess my question to you this morning is: What are your 
thoughts on the potential and really a recommended way ahead 
when we are talking about small modular reactors?
    Mr. Morehouse. Thank you, Senator. Conceptually, they seem 
like an idea with a lot of promise.
    What we have done in response to the specific NDAA 
language, asking us to go do a study, the language was directed 
toward foreign operating locations, so we needed to pull 
together people who understood SMR technologies but also 
understood forward operating locations, what it is like to 
operate in those areas. So we chose the Defense Science Board 
as the mechanism for doing that. We identified our cochairs. We 
are in the process now of putting together the membership.
    That study will get kicked off fairly soon. We expect to 
have some results next year, but it will be the integration of 
knowledge on both sides of that issue. We will let the chips 
fall where they may.
    Senator Murkowski. Very quickly here, Mr. Chairman. We, 
again, appreciate the difficulties of operating some of our 
installations in very cold places, Eielson, Fort Greeley, 
Clear. It is a major consideration, as you well know.
    And as you are assessing, not only the opportunities for 
something like small modular reactors and their potential 
there, is there anything that DOD can do to provide a more 
comprehensive assessment of energy at some of our more remote 
locations like Greely, like Eielson, that not only would detail 
the costs that are at play, but perhaps outline some of the 
feasible options or alternatives?
    I know that within Alaska, the Alaskan command has been 
looking specifically to this type of an assessment. But from a 
broader DOD perspective, is that something that is being 
conducted or considered?
    Mr. Morehouse. We are in the process of looking at energy 
resilience as an important part of our military operations. We 
are looking at where are the critical nodes in critical 
missions, how resilient are those nodes. Energy is a key 
component of that mission assurance assessment.
    With respect to the SMR study, we have asked the team to 
look at it also in terms of use cases. Are there use cases out 
there that would seem appropriate for the characteristics of an 
SMR.
    So we are asking the question both ways, so we think that 
the study will actually reveal some of those opportunities.
    In terms of interaction with the private sector, as you 
know, we buy energy as a utility. We buy it on the commodity 
markets. So our interactions with utility companies and so 
forth are very important.
    There are perhaps some opportunities to work with utilities 
through power purchasing agreement (PPA) options that may help 
move this along. Currently, we don't have the authority to 
enter into PPAs for nuclear power as we do with renewable 
energy, so that potentially is an avenue worth exploring as 
well.
    Senator Murkowski. And when do you figure that study will 
be complete?
    Mr. Morehouse. I don't have the timeline yet, but we expect 
it to be out sometime next year.
    Senator Murkowski. I look forward to discussing that with 
you.
    Mr. Morehouse. Okay, thank you.
    Senator Murkowski. Thank you, Mr. Chairman.

                             CLIMATE CHANGE

    Senator Durbin. Thank you, Senator.
    It is interesting to compare the debate on climate change 
on Capitol Hill and in the Pentagon, because on Capitol Hill, 
there are various schools of thought. Some believe it exists. 
Some who are elected officials deny it completely. Some believe 
that it exists, but question its source. And others say, 
regardless of source, there are certain things that we should 
do about it.
    Most, I think, acknowledge something is going on out there 
with extreme weather and some of the indicators we have of 
changes around the world.
    Now when we go over to your world in the Pentagon, I don't 
find much debate. In fact, it is pretty clear that, from a 
military and defense posture, we view this as a real challenge. 
You may not have the recipe for averting this challenge, but a 
real challenge that has to be faced squarely.
    I had a chance to visit my colleagues in Hawaii a few weeks 
ago and met with Admiral Locklear, the Pacific Commander, and I 
was impressed with his operation.
    He has been unequivocal. He has testified, not 1 year but 2 
in succession, that climate change is the number one long-term 
threat in the Asia-Pacific. He identifies two things, natural 
disasters, which occur at a much higher pace and greater rate 
in that region of the world, which will require some military 
awareness, if not response; and secondly, the impact of sea 
rise and other environmental changes on the populations of this 
part of the world, creating migrations, political instability, 
perhaps even a breeding ground for terrorism.
    All of these things are part of his calculation about 
America's defense posture when it comes to the Asia-Pacific. We 
have strategists here as well as the practitioners dealing with 
these energy issues. I would like to ask you, as you assess our 
challenges to come in the decades ahead, as we look beyond the 
horizon, how big of a factor is this?
    Admiral Locklear says it is the number one threat in the 
Asia-Pacific. Globally, how big a threat is climate change to 
the security of the United States? I can't think of a more 
open-ended question.

            FUTURE ENERGY CHALLENGES AND POTENTIAL RESPONSES

    Mr. McGinn. Senator, it is an absolutely right question. As 
to the differences between how climate change is dealt with in 
the Pentagon versus on Capitol Hill, I think the original 
chairman of the CNA military advisory board, Gordon Sullivan, 
former Chief of Staff of the Army, said it best. He said we 
never have 100 percent certainty. If you wait for 100 percent 
certainty on the battlefield, something bad is going to happen.
    We look for indicators, warnings, reasons to take actions 
that are prudent, not to completely place a bet on one 
particular certainty happening. But it is clear, overwhelmingly 
clear, to everybody in the Pentagon and to a majority of folks, 
I believe, in our Nation, that climate change is happening and 
that we need to do something about it.
    And those two categories of actions, I would say, would be 
we need to try to mitigate the worst effects of it by reducing 
the amount of greenhouse gas we are pumping into the 
atmosphere. But importantly, we know that severe weather is 
going to be with us for many, many decades to come. We need to 
be able to adapt to it.
    In the case of the Navy, we need to make sure that if we 
have installations that exist in a FEMA floodplain, for 
example, that we are building places that are going to be safe, 
not when the sun is shining and the sky is blue, but when the 
wind is howling and that sea level rise that is caused by surge 
similar to what we saw a couple years ago, a year and half ago, 
up in New York and New Jersey with Superstorm Sandy.
    We are dealing with this as a serious threat because it is. 
And as Dr. Chiu pointed out, when you have fragile societies 
and fragile governments around the world, as we do in many 
areas of national security importance to the United States, and 
you add to those fragile societies increased pressure from 
adverse weather that is more intense, more frequent than we 
have seen in the past, they fail. And that is a recipe for 
instability and could escalate all the way from humanitarian 
assistance, disaster relief for the United States forces, all 
the way up to regional war, if there is cross-border migration 
or other competition for scarce resources.
    Senator Durbin. Any others wish to comment?
    Dr. Chiu. I will just strongly agree with that and 
reinforce what Admiral Locklear has said. He definitely is 
correct in stating his strong concern with the effects of 
climate change on his AOR. As you have correctly pointed out, 
he has a number of different manifestations of it to deal with.
    But as Secretary McGinn mentioned, and in answer to your 
specific question, it is, certainly, one of many considerations 
that we need to look at when we look at national security 
interests in that region.
    This is why we have used the term, and I think you have 
heard us use it both in the QDR and others have used it in 
other venues, that climate change to us is a threat multiplier. 
It really can exacerbate many of these existing or emerging 
tensions. And this is why we do need to pay particular 
attention to it.
    Senator Durbin. I would just close by saying I believe what 
you are saying is right on and that we are fools not to 
acknowledge it. I have tried to have hearings on the subject. I 
do not invite in environmentalists, as much as I respect them, 
because there are many who are skeptical of them. I invited in 
the commercial property insurance industry, which said flat 
out, we don't insure these things anymore because we can't 
create a reserve for the exposure because of extreme weather 
conditions and climate change.
    And I have invited in the defense spokespeople today, 
because you are looking at it from a real-world perspective 
that has less concern about who is running in the next election 
and more concern about the threats we face in the future.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I have no further questions.
    Senator Durbin. Thank you.
    Senator Shelby.
    Senator Shelby. I have several questions. I will try to be 
brief.
    Going back to the procurement process, we know we face 
long-term energy challenges. In the short term, we know there 
is something going on worldwide. It is not going to just affect 
us. It is going to affect everybody. And we have to be 
cognizant of that and plan for it as much as we can.
    But in the procurement process, General Lewis, when the Air 
Force, for example, now--maybe they didn't have to in the past 
but will in the future, I think, because of scarce dollars--you 
are looking for a plane, for example, either a transport plane, 
a fighter bomber, whatever, for a mission, and it is long-term 
procurement.
    You want a weapon system, for the lethality of it, that can 
outmaneuver everything as far as physics is concerned, and 
everything, all of our potential enemies in the world. But how 
much goes into the procurement? And how can you construct, 
devise, design an engine for a plane, transport and otherwise, 
to save energy and for efficiency? Does that go into the 
procurement process or is that way down the line?
    Because in the marketplace, which Senator Durbin alluded 
to, our air carriers, they transport mainly people and goods. 
Efficiency of those engines are of the utmost because of the 
cost of energy.
    You want to respond to that? Do you know? If the thought of 
energy expense goes into the procurement process of an engine, 
and if so, where is it in the priority list?
    General Lewis. Senator, I am not in the procurement 
business.
    Senator Shelby. Okay. I will direct it to the Secretary.
    Secretary Morehouse.

                   ENERGY KEY PERFORMANCE PARAMETERS

    Mr. Morehouse. Thank you, Senator. One of the initiatives 
our office started when we were stood up was something called 
an energy KPP (key performance parameter). A KPP is a key 
performance parameter for new weapon systems. It is one of the 
definitions of what does this thing have to do, what does this 
performance have to be.
    And the idea behind the energy KPP was that how much energy 
will this thing demand when it is doing what is supposed to do.
    Senator Shelby. To do its mission. Sure.
    Mr. Morehouse. Correct.
    So we have developed the analytic basis, if you will, for 
understanding how to establish that energy KPP. That becomes a 
requirement, if you will, a fundamental requirement for the 
system when it comes out the other end of the acquisition 
process.
    Senator Shelby. Is this new? Is this relatively new in the 
procurement process, the last 7, 8, 10 years?
    Mr. Morehouse. It is very new in the process, within the 
past 2 or 3 years.
    Senator Shelby. Okay.
    Mr. Morehouse. Yes, sir.
    We are just getting the hang of how to do this. We have 
number of programs that are coming through now that have the 
energy KPP assigned.
    The requirements community, the operators, if you will, 
determine what a system has to do. The acquisition process 
decides how we are going to build this thing to deliver the 
capabilities that the warfighter wants. In between there is 
this trade-off space between what is affordable, what is 
achievable, what is within the appropriate parameters of 
technical risk.
    And there are a number of KPPs having to do with reach and 
range, survivability, lethality. And all of these exist within 
that trade space.
    So we are now developing the tools to be able to understand 
how we establish a reasonable energy performance parameter for 
these systems.
    Senator Shelby. Without compromising the mission.
    Mr. Morehouse. Absolutely.
    Senator Shelby. Because that is number one.
    Mr. Morehouse. Yes, sir. That is absolutely right.
    It is also recognizing that there is a burden of delivering 
fuel within a battle space in a contested area.
    Those supply lines are legitimate targets. And if they 
interdict those supply lines, it affects our ability to 
maneuver. It means we have to take combat forces out of the 
front. We have to protect those lines of communication. That 
affects how much force the commanders have available to them to 
go accomplish the mission. And we had to game all of this out 
to understand what the operational implications are of setting 
these parameters.
    I would also like to add, if I could, that over the past 
few years, the Under Secretary for AT&L has embarked upon an 
initiative to revise the acquisition process to try to identify 
where there have been problems with acquisition in the past, 
and use research and data analysis to try to fix those. Better 
Buying Power is an initiative that he has put in place.
    And if we could take a question for the record, to 
illuminate those actions that the Under Secretary is taking to 
revise the acquisition process, I would appreciate that.
    Senator Shelby. Sure.
    [The information follows:]

    The Under Secretary of Defense for Acquisition, Technology and 
Logistics (USD(AT&L)), HON Frank Kendall, has directed a number of 
parallel efforts to institute a long term and continuous process to 
improve the defense acquisition system. These efforts include: Better 
Buying Power; an interim policy update to the Department of Defense 
Instruction (DODI) 5000.02, ``Operation of the Defense Acquisition 
System;'' and a comprehensive review of current statutes and 
regulations with the aim of simplifying legislative requirements 
imposed on acquisition programs and institutions.
    Better Buying Power (BBP) 2.0 reflects the ongoing commitment to 
continuous improvements in acquisition management. Significant progress 
has been made since BBP was first introduced almost 4 years ago. 
Affordability analysis and Should Cost planning have been implemented 
to improve investment decisions and to reduce costs across all types of 
acquisitions; Small-business participation and opportunities have been 
increasing since fiscal year 2011 as a direct result of BBP actions; 
and a renewed emphasis has been placed on increasing the 
professionalism of the acquisition workforce--people are essential to 
changing the culture of how we acquire goods and services to support 
the Warfighter.
    BBP's emphasis on continuous process improvement resulted in an in-
depth review and subsequent update to the Department's policies for the 
operation of the defense acquisition system, known as DODI 5000.02. The 
interim policy was released on November 25, 2013 and it:
  --Decreases the emphasis on rules and increases the emphasis on 
        thoughtful planning;
  --Provides tailoring of program structures and procedures;
  --Enhances the discussion of program management responsibility and 
        key supporting disciplines; and
  --Institutionalizes changes to statute and policy since the last 
        issuance of DODI 5000.02 in December 2008.
    In addition, the process of updating the DODI 5000.02 revealed that 
the current body of law has placed an unnecessarily complex burden on 
Program Managers. The USD (AT&L) has directed a comprehensive review of 
current statutes and regulations to prepare a legislative proposal to 
simplify the existing body of law and regulations while maintaining the 
overall intent of existing statute. The proposal should be finalized in 
time to be included in the fiscal year 2016 National Defense 
Authorization Act (NDAA).

                               FUEL COSTS

    Senator Shelby. Mr. Secretary, if you could save 10 
percent, we will just use that as a marker, 10 percent in your 
energy costs because of efficiency, using what you have better, 
more efficiently and not waste, and also the procurement, the 
combination, how much money would that translate into?
    Mr. Morehouse. We spend about $15 billion on liquid fuel. 
So if you just take 10 percent off the top----
    Senator Shelby. So a lot of money.
    Mr. Morehouse. $1.5 billion. It is.
    I will say though, that if we are actually conducting 
operations, the further you get to the tactical edge, the more 
energy it takes to deliver that energy, the more money it 
costs.
    Senator Shelby. He pointed it out. At $400, you might buy 
two or three, and delivering it gets on up because of the cost 
of transportation.
    Mr. Morehouse. The actual dollar cost depends upon how 
contested the environment is and how far you have to deliver 
the fuel.
    We have done some back-of-the-envelope calculations to try 
to understand, on a more global basis, what is that fully 
burdened cost of fuel, if you will. In Afghanistan, the forward 
operating bases are more around the $40 mark. To deliver fuel 
out of the backend of an airborne tanker is probably more 
around the $30 to $40 mark as well. So we get these pathologic 
cases where you have very extreme delivery costs, but those are 
the far end of the bell curve.
    Senator Shelby. I know the procurement process is not 
flexible. We understand that. But if you had some flexibility 
in buying oil, diesel, or jet fuel, and so forth, like an 
airline had or a railroad had, do you have any studies how much 
money that could possibly save? I know it depends on the 
market.
    Mr. Morehouse. In terms of our actual procurement?
    Senator Shelby. Flexibility. What could it save you, if you 
had some flexibility to go into the market at different times, 
rather than long-term procurement?
    Mr. Morehouse. The DLA has four contracts here that they 
award on a geographic basis. This is the fuel we buy for 
operations, our bulk fuel programs.
    And these are 1-year contracts with an adjustability rate 
that is the same template, if you will, that the airlines use 
to buy fuel for themselves. There have been multiple studies 
that compare and contrast how DLA buys its fuel relative to how 
the airline industry or other very fuel intensive industries 
buy fuel. And there is strong comparability in terms of how 
this is done.
    We have been asked by Congress to look at this notion of 
hedging, how would we hedge our buys so that we can manage 
those costs better.
    Senator Shelby. Like everybody else does, in the market.
    Mr. Morehouse. Yes, sir. We are in the process now of 
actually doing a study on that.
    Senator Shelby. Senator Durbin alluded to that earlier, how 
do you use some of the market principles in the procurement 
process.
    Mr. Morehouse. So we have a study going on that now, on how 
we would go about hedging and what the results would be.
    I will say that hedging can be a tool for dampening out the 
price spikes.
    Senator Shelby. But hedging is just managing risk, is it 
not? Unless this is just gambling, and you are not gambling, 
because you are buying an end product.
    Mr. Morehouse. That is right.
    Senator Shelby. And you are managing the cost of it, or 
trying to, right?
    Mr. Morehouse. That is right.
    We have some internal capacity for managing that 
volatility. We have a revolving fund for buying fuel, so all 
the services pay the same amount of money throughout the year 
for the fuel that they buy. Perturbations in the market price 
are absorbed by this revolving fund.
    So we have some capability within the Department to avoid 
creating operational impacts from price volatility. Could we 
use more capacity? We are not quite sure yet, but we are doing 
a study to look into that. That study should be done this year.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                              ENERGY COSTS

    Important conversation to be talking about how we are going 
to reduce our energy costs.
    Mr. Morehouse, I don't know if you are familiar with a 
proposal that is being considered in the interior part of the 
State, in Fairbanks. They pay about $.22 a kilowatt hour for 
their energy, don't have access to natural gas, options are 
limited. And they are underway now with a project that would 
allow for trucking of liquefied natural gas from the North 
Slope, bring it down into the interior.
    It is estimated that energy costs in the region then could 
be reduced by about 20 percent.
    I don't know if the military is looking at participating in 
this. It is called the Northern Rail built trucking project. 
But it is something that has been advanced with our Alaska 
Industrial Development and Export Authority, again, working 
with the principals there.
    But it is something that if you haven't looked at, I might 
suggest that that is something that is worthy of consideration.
    One of these days, we are going to get natural gas by 
pipeline down to the region. But until such time, we are 
looking at trucking it.
    Mr. Morehouse. If I could, I appreciate the challenges of 
living in rural Alaska. I had the pleasure of living in Galena 
for a year as the base engineer.
    Senator Murkowski. So you know.
    Mr. Morehouse. I understand the challenges up there. We ran 
our own power plant and our own utilities at the small base up 
there.
    The installation issues when it comes to the bigger bases 
is really handled by my colleague, John Conger. So what I would 
like to do, if I could, is take that question back for the 
record, consult with John, and get back with you.
    Senator Murkowski. Great. That is wonderful.
    Mr. Morehouse. Thank you.
    [The information follows:]

    The Department appreciates the insights and details into the 
northern rail project currently underway in the State of Alaska to 
offer a potential avenue to more affordable and diversified energy 
solutions for our military installations. While the military is not 
presently participating in the rail project, it does consider a variety 
of solutions to pay lower utility costs, especially in more remote 
areas where costs are high. The Department will continue to monitor the 
rail project as it develops for the potential to deliver diversified 
and affordable energy to our military installations.

    Senator Murkowski. Let me ask a broader question. I have 
been focused, as the ranking member on the Energy Committee, on 
different pieces of what I believe to be a pretty considered 
approach to energy initiatives and policy.
    And in a white paper that I released just a couple weeks 
ago, we focused on the nexus between energy and water. The 
amount of energy that it takes to move water, to treat water, 
is considerable. And the reverse is also.
    So you cannot have the energy without water. And it is a 
balance in everything that we do. And yet it is not talked 
about a lot.
    We talk about all these great processes that are going to 
allow us to access whatever the resource may be, but we don't 
think about it, necessarily, in terms of what does it mean for 
water consumption.
    And when we talk about the issue of a changing climate and 
the impact not only on this country, but on nations around the 
globe, there is a great deal of interest and focus on drought.
    I have suggested, and I am not the only one, that if there 
is a next world war, I don't think it is going to be fought 
over oil. I think it is going to be fought over water. And so 
how we acknowledge this, how we recognize it, how we work to 
reduce our water consumption, at the same time that we are 
talking about energy efficiencies, within DOD, how much 
attention is given to this aspect, the energy-water nexus?

           WATER RESOURCE CHALLENGES AND POTENTIAL RESPONSES

    Mr. McGinn. Senator, you are absolutely right. It is 
energy-water and I would add environmental nexus to that 
construct.
    I will use a case of our Navy and Marine Corps bases in the 
State of California, which is encountering a historic drought. 
We have made tremendous progress over the past 5 years in 
reducing our water consumption overall across all of our Navy 
and Marine Corps bases in excess of 25 percent.
    In addition, because Governor Brown declared a state of 
emergency because of the drought, we have agreed for this year 
and going forward, as long as we need to, to try to get another 
20 percent of water savings. This is done in a variety of ways, 
just plain old conservation, not using water where we might 
have before to wash vehicles, for example, or irrigation or 
what have you. There is a lot of recycling of water that is 
going on, graywater, in particular.
    One of the things, in terms of thinking about water 
globally, I once heard that we don't have a water problem in 
this world, we have a salt problem. We just need to figure out 
how to get the good potable water out of the salt.
    And that is enabled, I think, by large-scale, affordable, 
accessible, and renewable energy, where you can in fact use the 
renewable energy in various parts of the world to operate some 
sort of a distillery or desalinization plant or purification 
from contaminated water.
    And I think that this is a perfect area where that nexus of 
water and energy really comes into being, especially in parts 
of the developing world where they don't even have the kind of 
access to water that we have in this country.
    Senator Murkowski. Dr. Chiu.
    Dr. Chiu. Senator, if I could just add to that point, in 
terms of particularly looking longer term at the international 
security environment, you raise a great point about this nexus 
of issues.
    You can actually add a few issues to it. We look at it very 
much as a nexus of things like energy, things like climate, 
things like food and water, but also demographics and longer 
term developmental patterns as well. All of these things can 
converge in ways that can really create significant 
instabilities in areas that we are already looking at, or new 
instabilities in areas that we hadn't previously considered.
    It is very complicated, particularly over time, to even 
track any one of these trends, and then to recognize that there 
are multiple ways in which they can combine and really have 
quite different manifestations over time makes it even more 
complicated.
    But this highlights the need. We have been talking a lot 
about trying to exercise more flexibility and adaptability in 
the procurement system. I think it really highlights the need 
for us, in general, as a department, and I would argue more 
broadly as a government, to be able to exercise more of that 
flexibility and adaptability.
    We obviously need to try to anticipate, to look out as far 
as we can. But because of the complexity of these issues, we 
are not always necessarily going to be able to pinpoint predict 
where these things are going to happen.
    As a result, really ensuring that we have kind of a broad 
set of capabilities and the adjustability and flexibility we 
need to identify as early as possible these issues as they 
arise, and then to be ideally proactive in preventing them when 
we can.
    That is really one of the things we are putting a lot of 
emphasis on, as we consider this extremely complex kind of 
emerging future security environment.
    Senator Murkowski. I appreciate the focus on it. You 
mention renewables and our opportunities there to address our 
water needs. I would hope that as the military is focusing on 
renewables that marine and hydrokinetic, harnessing the power 
that we have within our rivers.
    Mr. Morehouse, you have been up to Galena. You are sitting 
right there on a pretty considerable river.
    If we can't harness the power coming out of the Yukon, we 
are not putting on our smart hats here. And so many of our 
bases are co-located along rivers where we have great 
opportunity. So I would hope that marine and hydrokinetic is 
also something that we are closely looking at.

                    ALTERNATIVE ENERGY POSSIBILITIES

    Mr. McGinn. It is, and we are also looking at ocean energy 
as well, tidal, wave energy, and ocean thermal, across-the-
board.
    These are a little bit further out in time. But as you 
point out, we have a lot of water running low-head hydro, 
micro-hydro. Those are opportunities to harvest energy right 
now without any adverse environmental impact.
    Senator Murkowski. Good. Thank you.
    Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Thank you very much, Senator Murkowski.
    I want to make a note, my predecessor, Paul Simon, wrote a 
book called Tapped Out 25 years ago that really reflects the 
conversation Senator Murkowski just had with the panel about 
the challenge of water in the 21st century.
    As I recall about 20 percent of the water on this Earth is 
consumed for industrial purposes, about 10 percent for human 
consumption, and 70 percent for agriculture. As we find new 
ways to grow crops and to feed the world with less water, we 
are also going to be addressing efficiency and the use of 
water.
    I think most of us can agree this is likely to be a 
volatile issue for many years to come.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Dennis McGinn
            Questions Submitted by Senator Richard J. Durbin
    Question. Secretary McGinn, as you know, the Subcommittee has been 
very supportive of the Navy's Advanced Drop-in Biofuels program. Phase 
I awards were made last year, and we expect Phase II awards to be made 
by this summer. As a supporter of alternative energy solutions, I 
appreciate the Navy's leadership, and Congress continues to support 
this effort.
    Critics of the program charge that biofuel at $26.00 a gallon is 
unaffordable. What is your current estimate for the cost of a gallon of 
biofuel, and when will these fuels be used operationally?
    Answer. It is projected that drop-in biofuels will be available in 
bulk for less than $4 per gallon by 2016, making them cost competitive 
with conventional fuel. Department of Navy (DON) will only purchase 
biofuels for operational use when available at cost competitive rates 
per OSD Policy and the 2014 NDAA.
    Biofuels annexes were inserted into the Defense Logistics Agency 
(DLA) Energy solicitation for the Western Pacific bulk fuels program. 
This means that cost competitive alternative fuels could enter into the 
DON JP-5 jet and F-76 marine diesel fuel streams in the Western Pacific 
as early as 1 January 2015.
    In domestic markets, DLA Energy released the 2014 Inland/East/Gulf 
Coast bulk fuels solicitation, which seeks drop-in biofuels as part of 
the Navy's F-76 marine diesel and JP-5 shipboard jet fuel supply. The 
biofuels sought can be blended in a range from 10- 50 percent with 
conventional petroleum products. The Inland/East/Gulf Coast bulk fuels 
solicitation may utilize funds from the USDA's Commodity Credit 
Corporation to offset premiums associated with domestic feedstock 
costs. This ensures that DON will bear no additional costs for 
alternative vs. conventional fuels. Delivery of these fuels is slated 
to begin 1 April 2015.
    Question. Are government investments in this project being matched 
with private investments?
    Answer. Yes. The program requires that industry provide at least a 
50 percent cost share for each phase of the Advanced Drop-in Biofuels 
Production Project. In Phase 1, industry provided $22 million of the 
total $42.5 million cost, for a 52 percent cost share. Phase 2 industry 
cost share amounts are not final as contract negotiations are still 
underway. Initial industry cost share projections are close to 70 
percent of the over $900 million required.
    Question. Secretary McGinn, Mr. Morehouse, an unexpected aspect of 
the war in Afghanistan has been stories about how important fuel is. 
We've all heard about fuel convoys being attacked, disruptions of 
supplies as they truck in from Pakistan, and the importance of energy 
to a Forward Operation Base (``FOB'') in some remote province.Now let's 
move to the Asia-Pacific theater. No war. Different goals. But the U.S. 
military is operating there now and anticipates a bigger presence in 
the future. One comparison I have is that the flight from Bagram to 
Kandahar burns 3,000 gallons of fuel, whereas Guam to Seoul burns 
11,500 gallons and Guam to Singapore 16,000 gallons.
    Extrapolate for this Subcommittee what are the energy challenges--
and opportunities--imposed by geography in the Pacific?
    Answer. Energy is a strategic resource and a critical combat 
enabler for Navy and Marine Corps operations. Every year, the Navy 
delivers 1.25 billion gallons of fuel to our worldwide operations. The 
need to maintain a continuous supply, coupled with price volatility in 
the marketplace, represents potential vulnerabilities to both the 
Warfighter and our national security. This is one of our Achilles' 
heels in operations, especially when seen through the lens of the 
Pacific area of operations. Our bases in Hawaii, Guam, and Diego Garcia 
are examples where conventional natural resources are limited, and the 
energy must be imported using a long supply line from the U.S. mainland 
or from foreign countries. By incorporating energy efficient 
technologies and behaviors into operations afloat and ashore, the Navy 
can increase combat capability and resiliency, while reducing 
vulnerabilities.
    While the Pacific creates challenges, it also presents 
opportunities to enhance our capabilities. The first opportunity is 
that it forces us to reconsider the Navy's energy security posture. 
Operating forward requires us to be more judicious in our use of 
operational resources. Finding both technological and operational ways 
to use less energy keeps us on station longer, where it matters, when 
it matters, and increases our combat range in theaters like the 
Pacific. Another opportunity exists to develop and leverage economic 
and military relationships with countries in the Asia-Pacific Theater 
in order to gain assured access to necessary resources. As we continue 
to rebalance to the Pacific, a theater that is characterized by a 
tyranny of distance, we will need to be judicious in our use of energy, 
understand our logistical supply challenges, and provide solutions for 
the future Fleet.
    Question. Secretary McGinn, Mr. Morehouse, earlier this year, the 
U.S. Army and Honeywell announced a $61 million public-private 
partnership agreement at Rock Island Arsenal to upgrade the 
manufacturing facility's energy systems, including its HVAC system and 
switching its power source from coal to natural gas. Here's the win-
win: It will cut the base's energy bill by 35 percent and generate up 
to $5.3 million in annual savings. The best part is that it doesn't 
cost the government a dime. It's using something called Energy Savings 
Performance Contracts. These agreements allow the companies to make the 
upfront capital investment, and then collect the first few years of 
energy savings generated by those upgrades. DOD has not used Energy 
Savings Performance Contracts for operational energy--vehicles, ships, 
and the like--but a bill I support, introduced by Senator Mark Udall, 
would give DOD that authority.
    How can we expand this model? What opportunities is DOD looking at 
next?
    Answer. Expanding the Energy Savings Performance Contract (ESPC) 
and Utility Energy Service Contract (UESC) models into operational 
energy would be a helpful addition to operational energy efforts. Both 
of these models leverage the private sector through third-party funding 
of energy efficiency projects. ESPCs and UESCs enable investments to be 
recouped through the realized savings from the project. This results 
decreased energy consumption without upfront capital costs.
    The U.S. Navy partnered with the U.S. Coast Guard to examine an 
adapted UESC model for shipboard energy conservation measures onboard 
mobile U.S. Coast Guard assets at Coast Guard Base Miami Beach, FL. 
This pilot project will run from late 2014 through 2018, with 
installations occurring after the first 10 months, with 2-3 years of 
operating reviews focusing on the shipboard environment. Although 
currently funded by the government, the intention of the pilot is to 
encourage the use of future UESCs that are third-party funded. The main 
product of the pilot project will be a repeatable procurement process 
that can be applied to multiple assets, addressing both operational 
energy use at sea and shipboard use of shore power when moored. Results 
and lessons learned will inform policy discussions and consideration of 
similar efforts within the U.S. Navy.
    Question. The U.S. is heavily invested in the Middle East and North 
Africa because of the important security relationships with our 
friends, but also because our adversaries could easily threaten the 
world's energy supply.
    If our energy supplies come from more diverse sources, should that 
change how we deal with adversaries in the region?
    Answer. Access to diverse sources of energy is in the strategic 
interest of the United States as it provides alternatives to importing 
petroleum products and limits the influence a petroleum supplier, or 
adversary can exert on national policy.
    The United States commitment to our allies and partners in this 
region is not solely defined by energy sources. It is defined by common 
security objectives and shared values, which will remain threatened by 
adversaries.
    If the U.S were to broaden its energy diversity or achieve energy 
independence, it would increase resilience against strategic supply 
disruptions and dampen the effect of petroleum price volatility on U.S. 
operations, but it would not eliminate the threat from regional 
adversaries. For the near future, it is safe to assume:
  --The world's energy supply will remain vulnerable and easily 
        threatened by State and non-State actors.
  --Adversaries will identify and adapt to target our strategic 
        vulnerabilities. If we eliminate adversaries' abilities to 
        target availability of energy, we would expect them to attempt 
        to pressure a different vital interest or vulnerability.
  --The United States and our partners will also adapt to the threats 
        brought by regional adversaries by mitigating vulnerabilities 
        while putting pressure on adversary vulnerabilities.
  --Petroleum will continue to be a globally traded commodity whose 
        price reflects the composite global supply and demand. 
        Therefore regional supply uncertainties impact the entire 
        global market.
    While diversity of energy sources may allow the United States more 
freedom of action in the energy sector, we must always consider our 
allies and partners in any approach we take to regional threats. Given 
the assumption that the world's overall energy supply will remain 
vulnerable, it is anticipated that our approach towards adversaries 
will not change significantly.
                                 ______
                                 
             Question Submitted by Senator Mary L. Landrieu
    Question. Access to water is critical for companies that provide 
electricity to our most important military installations.
    As water resources become more precious can you provide an update 
on the impact of water resources on national security?
    Answer. Increasing demand for water places stress on the same 
finite supplies of water that military installations depend on to 
fulfill their missions. In addition, the effects of a changing climate 
as well as near-term weather variability may exacerbate water shortages 
and make the management of water resources in the future more 
challenging.
    The Department of the Navy is committed to having a thorough 
understanding of our current and future water needs for each military 
installation. Each installation and range will collect and maintain 
information associated with its water rights, and the Department will 
plan and manage our water resources to ensure the sustainment of our 
mission and enhance our water security.
                                 ______
                                 
          Questions Submitted to Edward Thomas Moorehouse, Jr.
            Questions Submitted by Senator Richard J. Durbin
    Question. Mr. Morehouse, the Office of Operational Energy Plans and 
Programs was established in 2010, and you have recounted for us many of 
its achievements.
    How do you measure the success of operational energy programs? Does 
OEPP have reliable metrics with which to track and evaluate the 
progress of these programs?
    Answer. Operational energy is about more than increasing systems' 
energy efficiency or increasing energy availability. It is about 
increasing the operational capability of our combat forces while 
decreasing their operational risk. In that regard, when evaluating the 
worth, value, or success of an operational energy initiative, we seek 
to measure its effect on the force's operational capability and risk 
through scenario-based analysis which accurately represents friendly 
and enemy force structures, capabilities, and logistics requirements. 
My office is working with the Joint Staff, the Services, and other OSD 
offices to expand DOD's theater-level campaign analysis to include 
operational energy initiatives and measure their effect. I expect to 
have early results in fiscal year 2015.
    Question. How is OEPP ensuring that its best practices regarding 
energy savings, and the best practices of the services, are being 
disseminated and that unnecessary duplication of programs is being 
avoided?
    Answer. OEPP has taken tangible steps to publicize ongoing 
programs, disseminate lessons learned and share knowledge, and avoid 
duplication across the Services, Joint Staff, Combatant Commands, the 
Defense Agencies, and the military establishment. Here are some 
examples of actions we are taking to address this across key areas: 
OEPP facilitates recurring teleconference calls among key players 
across DOD to exchange information, discuss operational challenges, and 
bring group expertise to bear on challenging issues. We also cooperate 
with the Joint Staff to create a formal DOD Contingency Basing 
governance body with Service and stakeholder input, to help senior 
leaders guide development of future joint contingency bases.
    Our Budget team has ongoing dialogue at the action officer level 
and regularly participates at a senior executive level in Service 
budget reviews, Service POM reviews, and Defense Acquisition Boards, 
Utilizing our annual Budget Certification process, which certifies the 
adequacy of the budget to the Secretary of Defense for implementing the 
Operational Energy Strategy, we and all the Services gain visibility 
into Service program investments across the DOD through a detailed 
review of all operational energy objectives. Through the Defense 
Operational Energy Board (DOEB), co-chaired by the ASD(OEPP) and the 
Joint Staff Director of Logistics, we communicate with the Services and 
receive Service input into our highest operational energy priorities. 
This serves to avoid duplicative efforts and drives collaboration 
across the Department.
    Our office works with USD(Policy) to ensure operational energy is 
included during the Planning phase and in the Defense Planning 
Guidance, and the Quadrennial Defense Review. Following extensive 
collaboration across the Department, on 16 April 2014, Acting Deputy 
Secretary of Defense Christine H. Fox signed out DOD Directive 4180.01, 
``DOD Energy Policy.'' As the Department's first overarching defense 
energy policy in over 20 years, this new Directive provides a coherent 
energy framework to guide the full range of defense energy activities, 
including operational energy, facilities energy, and energy-related 
elements of mission assurance. The Directive also codifies 
responsibilities for implementing the energy policy across OSD, the 
Joint Staff, Combatant Commands, Military Services, and Defense 
Agencies.
    We have established an Operational Energy Capability Improvement 
Fund (OECIF) to foster and incentivize innovation for improved 
operational energy performance and better align the Department's 
capabilities with the Operational Energy Strategy.The OECIF tends to 
emphasize technical areas that we believe the Service or the Department 
as a whole have not been concentrating enough resources. This mission 
has two key aspects. First, to develop and/or demonstrate operational 
energy technologies or practices that will improve the Department's 
military capabilities and/or reduce its costs. Second, to establish 
within the military Services sustainable, institutional capacity to 
continue to research, develop and adopt operational energy innovations. 
The Services propose programs which must be vetted by a Service Energy 
Office, ensuring buy-in. OECIF funds serve as ``seed money'' to 
consolidate or start promising operational energy programs; 
accordingly, OECIF emphasizes supporting or establishing programs, 
rather than one-off projects.
    In fiscal year 2012 and fiscal year 2013, OECIF programs focused on 
reducing energy load at expeditionary outposts. OECIF strongly 
encourages joint programs, and requires regular communication, reviews, 
and informal sharing among programs. In fiscal year 2013 alternative 
business models which foster collaboration, such as consortia, were 
strongly encouraged. These consortia were to enable the participation 
of small businesses and non-traditional innovators, since much 
innovation in the energy space emanates from these sources. All of 
these mechanisms expand program impact and reduce duplication. For 
fiscal year 2014 we are focusing on analytic methods and tools to 
improve the Department's consideration of, and decisionmaking about, 
operational energy.
    OEPP also is a leading participant in the Energy and Power 
Community of Interest (EPCOI). EPCOI is one of the oldest, most 
established DOD Communities of Interest that tie together relevant 
practitioners across DOD.
    Through our DOE/DOD Memorandum of Understanding, we seek to 
leverage the complementary goals of DOD and DOE energy programs where 
it helps the DOD mission. We are also actively cooperate with the U.S. 
Agency for International Development and the Department of Homeland 
Security to find ways to share best practices, and improve the 
efficiency and effectiveness of programs with U.S. Government-wide 
impact.
    Question. Secretary McGinn, Mr. Morehouse, an unexpected aspect of 
the war in Afghanistan has been stories about how important fuel is. 
We've all heard about fuel convoys being attacked, disruptions of 
supplies as they truck in from Pakistan, and the importance of energy 
to a Forward Operation Base (``FOB'') in some remote province. Now 
let's move to the Asia-Pacific theater. No war. Different goals. But 
the U.S. military is operating there now and anticipates a bigger 
presence in the future. One comparison I have is that the flight from 
Bagram to Kandahar burns 3,000 gallons of fuel, whereas Guam to Seoul 
burns 11,500 gallons and Guam to Singapore 16,000 gallons.
    Extrapolate for this Subcommittee what are the energy challenges--
and opportunities--imposed by geography in the Pacific?
    Answer. The 2014 Quadrennial Defense Review (QDR) summarized the 
broad challenges in the Pacific region as follows: ``The Asia-Pacific 
region is increasingly central to global commerce, politics, and 
security. Defense spending in this region continues to rise. As nations 
in the region continue to develop their military and security 
capabilities, there is greater risk that tensions over long-standing 
sovereignty disputes or claims to natural resources will spur 
disruptive competition or erupt into conflict, reversing the trends of 
rising regional peace, stability, and prosperity. In particular, the 
rapid pace and comprehensive scope of China's military modernization 
continues, combined with a relative lack of transparency and openness 
from China's leaders regarding both military capabilities and 
intentions.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.defense.gov/pubs/
2014_Quadrennial_Defense_Review.pdf.
---------------------------------------------------------------------------
    Related to energy in particular, the Department is fully aware of 
the ``tyranny of distance'' you describe and the additional challenges 
associated with the sheer size of the Asia Pacific region. The 
Department also will require a broader set of logistics and energy 
capabilities than those used to support contingency bases in 
Afghanistan; these additional logistics capabilities include aerial 
refueling, underway replenishment, air bases, ports, and air and sea 
lines of communication. As the QDR suggests, the Pacific also includes 
a different set of threats to energy than those in Afghanistan; U.S. 
logistics nodes in the Pacific may be subject to kinetic and cyber 
threats from air, sea, and land. Finally, the operating environment in 
the Pacific differs from the dry, hot environs of Afghanistan, and 
means a different set of challenges for optimizing the energy use by 
shelters and equipment at fixed and forward bases. Tactical power 
technologies will also be a challenge, with limited solar energy 
available under heavy jungle foliage, and moisture potentially 
affecting batteries.
    In terms of opportunities, the Department's overall strategy of 
more fight, less fuel will pay particular dividends in the Pacific. 
U.S. forces with additional range, endurance, and persistence will be 
better able to counter the challenges outlined above. The Department's 
Operational Energy Capabilities Improvement Fund also is funding a 
specific initiative to improve the use of energy in tropical base 
camps. Finally, we are working with partners across the Pacific Rim to 
identify opportunities for cooperation, including cooperative research 
and development and coalition exercises that focus on improving the use 
of energy in military operations.
    Question. Secretary McGinn, Mr. Morehouse, earlier this year, the 
U.S. Army and Honeywell announced a $61 million public-private 
partnership agreement at Rock Island Arsenal to upgrade the 
manufacturing facility's energy systems, including its HVAC system and 
switching its power source from coal to natural gas. Here's the win-
win: It will cut the base's energy bill by 35 percent and generate up 
to $5.3 million in annual savings. The best part is that it doesn't 
cost the government a dime. It's using something called Energy Savings 
Performance Contracts. These agreements allow the companies to make the 
upfront capital investment, and then collect the first few years of 
energy savings generated by those upgrades. DOD has not used Energy 
Savings Performance Contracts for operational energy--vehicles, ships, 
and the like--but a bill I support, introduced by Senator Mark Udall, 
would give DOD that authority.
    How can we expand this model? What opportunities is DOD looking at 
next?
    Answer. While it may be appealing in theory to extend Energy 
Savings Performance Contracts (ESPCs) to non-building applications, 
there are key differences between using ESPCs for buildings and for 
other applications such as mobile systems. General, wide-ranging 
application of ESPCs to mobile systems will be more difficult and 
complex to manage for the taxpayer. For example, there are differences 
in potential scale of the projects and their commensurate financial 
risk to the government. Buildings can be upgraded individually, whereas 
operational systems are generally part of a fleet that would need be 
upgraded on a fleet-wide basis, so the financial risk would be greater. 
To provide some perspective, since 1997, Federal Agencies have invested 
over $8 billion for facility energy upgrades through the ESPC program. 
A single project to upgrade an operational system, such as engines for 
a major platform, might exceed the Federal Government's total 17-year 
program value in ESPCs for buildings.
    Another important difference is that our mobile systems under 
combat conditions may move into harm's way. The investment in upgrades 
could be lost, and DOD could be paying for upgrades to a system that is 
no longer operational. It would also be more difficult to calculate the 
actual savings of mobile systems because their use varies more. In the 
past, GAO has suggested that the cost to acquire assets through an ESPC 
is greater than through full and up-front appropriations. The scoring 
for facility ESPCs is also at variance with generally accepted scoring 
guidelines utilized by OMB, CBO, and the Budget Committees to assess 
the implication of actions on discretionary spending, direct spending, 
and receipts. It is unclear whether scoring rules would be set such 
that ESPCs for mobile systems would be practical.
    Given the complexity, uncertainties and risks associated with 
extending ESPCs to non-building applications, including operational 
systems, a general legislative extension of the authority to enter into 
ESPCs is not recommended at this time.
    Question. The U.S. is heavily invested in the Middle East and North 
Africa because of the important security relationships with our 
friends, but also because our adversaries could easily threaten the 
world's energy supply.
    If our energy supplies come from more diverse sources, should that 
change how we deal with adversaries in the region?
    Answer. In 2013 remarks at the United Nations on U.S. policy in the 
Middle East, President Obama noted:
    ``We will ensure the free flow of energy from the region to the 
world. Although America is steadily reducing our own dependence on 
imported oil, the world still depends on the region's energy supply, 
and a severe disruption could destabilize the entire global economy.''
    The global nature of the oil market means that disruptions to any 
major source of oil supply affect the price of oil in all corners of 
the world. The Middle East and North Africa is the largest producing 
region in the world, accounting for a full one third of the world's oil 
production. Any significant reduction of supply from this region will 
have economic reverberations around the globe.
    While the U.S. is buying less oil from overseas, Middle Eastern oil 
remains an important component of U.S. energy supply and the foundation 
of global economic prosperity. The U.S. will remain prepared to use all 
elements of our power, including military force, to secure our core 
interests in the region.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. The State of Louisiana is home to some of the country's 
most critical national security assets, including: Barksdale Air Force 
Base, Ft. Polk, the Louisiana National Guard, Naval Air Station Joint 
Reserve Base, and the Headquarters for the U.S. Marine Corps Forces 
Reserve Base.
    In the face of a catastrophic weather event or man-made attack is 
the maturity of a micro-grid technology designed for our military 
installations a sufficient ``resilient'' energy source to satisfy the 
energy security demands in the immediate aftermath of a worst-case 
scenario?
    Answer. On-site energy is critical to making our bases more energy 
secure. The deployment of advanced microgrid systems along with on-base 
energy generation and energy storage systems will allow a military base 
to maintain its critical operations ``off-grid'' for weeks or months if 
the commercial grid is disrupted. Smart microgrids and energy storage 
have the potential to offer a robust, cost effective approach to 
ensuring installation energy security. However, microgrid deployment 
requires technology, standards, and policies developing in parallel.
    Today's microgrid systems are relatively unsophisticated, with 
limited ability to integrate renewable and other distributed energy 
sources, little or no energy storage capability, uncontrolled load 
demands, and ``dumb'' distribution that is subject to excessive losses. 
By contrast, future microgrids will operate as local power networks 
that can utilize distributed energy, manage local energy supply and 
demand, and operate seamlessly both in parallel to the grid and 
disconnected from the grid if required. Future microgrids will also 
enable other renewable energy projects across DOD to power critical 
loads. There are currently multiple DOD Energy Test Bed projects that 
are integrating the elements of the microgrid model, including 
renewable energy generation. These include multi-year projects at 
Twentynine Palms Marine Corps Base and Fort Bliss. In the meantime, we 
are ensuring we use our current capabilities to maximum effect.
    On December 16, 2013 the Acting Deputy Under Secretary of Defense 
(Installations and Environment) issued a memo to address power 
resilience on installations, specifically directing a power resilience 
review to examine installation adherence to key resilience policies, 
identify gaps in policy, and engage with Components to define future 
power resilience requirements.
    Currently, the majority of DOD installations rely on on-site 
generators and back-up fuel supplies to maintain mission-critical 
activities during weather events and outages. DOD Policies, such as the 
Department of Defense Instruction (DODI) 4170.11 Installation Energy 
Management, and the Defense Energy Program Policy Memorandum (DEPPM) 
92-1, Department of Defense Energy Security Policy, require 
installations to evaluate their resilience by:
  --Defining mission critical operations on installations and ensuring 
        there is sufficient backup generating power to continue those 
        missions,
  --Developing plans to execute mission critical functions at 
        alternative locations, and
  --Ensuring existing utility contracts include emergency support 
        contingency clauses
    In addition to DOD policies, the Services have specific policies 
and guidance to ensure that mission-critical activities are identified 
and a sufficient amount of backup power is available to maintain the 
mission and are required to take energy security into consideration as 
they develop their renewable energy plans.
    Question. Access to water is critical for companies that provide 
electricity to our most important military installations.
    As water resources become more precious can you provide an update 
on the impact of water resources on national security?
    Answer. Water is critical to life itself and neither DOD nor our 
surrounding communities can function without adequate fresh water. The 
February 2012 Intelligence Community Assessment on Global Water 
Security remains the seminal document on water resources and national 
security. It states, ``We assess that during the next 10 years, water 
problems will contribute to instability in States important to U.S. 
national security interests.'' According to the report, ``water 
problems when combined with poverty, social tensions, environmental 
degradation, ineffectual leadership, and weak political institutions-- 
contribute to social disruptions that can result in State failure.'' It 
also notes that water resources may play an increasing role in future 
regular and irregular conflict.
    One part of this challenge for DOD is on facilities and 
installations. Some DOD installations are located in areas where water 
resources are limited and we have programs in place to reduce our water 
intensity. Our progress toward meeting annual water intensity reduction 
goals is provided each year in our Strategic Sustainability Performance 
Plan. DOD installations have reduced our water intensity by 19.8 
percent (fiscal year 2013) since the baseline of fiscal year 2007. In 
addition, on May 23, 2014, DOD issued a policy memorandum, ``Water 
Rights and Water Resources Management on DOD Installations and Ranges 
in the United States and Territories,'' to ensure we know what water we 
have rights to and what resources are available to meet those rights. 
DOD is actively engaged in monitoring water needs and usage.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. Mr. Morehouse, in answering my question about SMRs for 
the military, you stated that the DOD does not have the legal authority 
to enter into a Power Purchasing Agreement (PPA) when it comes to 
electricity generated from nuclear power. However, 10 U.S.C. 2922A--
CONTRACTS FOR ENERGY OR FUEL FOR MILITARY INSTALLATIONS, the law that 
governs such power purchases, makes no mention of the specific 
exclusion of nuclear power-generated electricity (or for that matter 
any energy source) when it comes to the 30-year PPA authority the DOD 
has in this regard. Can you please explain the discrepancy between what 
you stated and the actual law?
    Answer. While 10 U.S.C. 2922a makes no distinctions between 
different types of power production facilities, there are other 
considerations that likely render existing authorities inadequate to 
provide the level of support a nuclear power plant would require.
    The 2922a authority is primarily exercised by DOD to enter into 
contracts with renewable energy providers that utilize proven and 
commercially available technologies for periods of up to 30 years--the 
maximum term authorized by the statute. The benefit to the developer is 
that these contracts enable them to secure the financing needed to 
construct energy production facilities such as solar photovoltaic and 
wind farms. The benefit to the Department is that we pay these 
electricity providers the same or lower rate per kilowatt-hour ($/kWh) 
that we pay to acquire energy from traditional sources (e.g., 
utilities), while enhancing the energy security of installations and 
helping the U.S. Government progress towards meeting renewable energy 
targets specified in Federal policies and executive orders.
    Building a nuclear reactor would require a much larger capital 
investment than other electricity production options, especially for a 
first-of-a-kind (FOAK) facility such as a small modular reactor (SMR). 
Even if FOAK costs were excluded, a recent study estimated that the 
required selling price of electricity from SMRs would be higher than 
the U.S. average price, but lower than the rate paid by some military 
installations in remote regions, assuming successful operation for 
several decades. \2\
---------------------------------------------------------------------------
    \2\ King, M., Huntzinger, R. L., & Nguyen, T. (2011). Feasibility 
of Nuclear Power on U.S. Military Installations. Center for Naval 
Analysis (CNA).
---------------------------------------------------------------------------
    Because of these considerations, the 30-year maximum term allowed 
under section 2922a would likely be insufficient to guarantee the 
funding stream needed to finance a nuclear power project, and/or the 
required selling price of electricity would not be competitive with 
alternative sources. Although section 2922a does not prevent DOD from 
entering into power purchase agreements with new nuclear power plants, 
the DOD would likely require additional authorities to do so, based on 
the current lack of commercially available nuclear technologies that 
could provide cost-effective power to military installations within the 
budgetary and time constraints of our existing contractual authorities.
    Question. I think by now we all appreciate the need for safe, 
secure and resilient energy supply for all military operations. Has 
there been an effort to quantify what energy security and resilience 
mean? How does the DOD view these concepts?
    Answer. In the DOD's view, the criticality of missions and 
potential impacts of energy disruptions define the required level of 
energy security and resilience. The DOD has several mechanisms that 
help ensure that critical missions have the reliable energy resources 
they need. The Defense Critical Infrastructure Program identifies and 
manages risks to the critical infrastructure that DOD relies upon to 
execute its missions. The Joint Staff's Joint Mission Assurance 
Assessment Pilot program sends experts to DOD facilities to assess 
risks, including energy security risks to critical DOD missions. The 
military Services also include energy security and resilience in their 
decisionmaking and notably, the Navy's ``Energy Return on Investment'' 
tool evaluates proposed energy projects in a balanced way for all value 
streams, including energy security and resilience.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. Generators are the biggest consumers of diesel fuel in 
war theaters for the Army and Marine Corps. In your written testimony, 
you stated that ``Mission-specific advisory teams developed more 
efficient power generation and distribution plans, replaced older 
equipment with more than 500 fuel efficient Advanced Medium Mobile 
Power System generators and 430 Improved Environmental Control Units, 
updated distribution systems to improve reliability and safety, and 
trained local soldiers to operate and maintain the equipment 
properly.'' What are DOD's plans to recapitalize tactical generator 
systems taking into account energy efficiency innovations?
    Answer. The U.S. Army has implemented a plan for recapitalizing all 
existing Tactical Quiet Generators (TQG) with Advanced Medium Mobile 
Power System (AMMPS) over 7 years. The initiative is in the second of 
the 7 year program and is approximately 25 percent complete. The 
fielding of AMMPS is expected to save the Army more than 50 million 
gallons of fuel annually. By focusing their efforts on solutions that 
reduce fuel usage on the battlefield the Army also addresses two 
problems: shrinking the amount of fuel the Army uses overall, and 
reducing the cost in lives, resources, and diverted combat forces for 
convoy protection as threats proliferate.
    Question. What are the service fuel efficiency and reliability 
targets for the newest fleet of generator systems, and what is the 
financial impact that achieving these targets would have on fuel 
expenditures? Given Department of Defense directives to reduce costs 
through increased fuel efficiency, how does this impact and influence 
the Department of Defense's plan to procure equipment?
    Answer. The fielding of the U.S. Army's newest fleet of generators, 
the Advanced Medium Mobile Power System (AMMPS), is approximately 2 
years into the 7 year recapitalization program. The U.S. Army realized 
a number of benefits by replacing Tactical Quiet Generators (TQGs) with 
AMMPS, such as enhanced power generation capability, improved fuel 
efficiency, increased system reliability, reduced system size and 
weight, increased survivability for military applications and reduced 
total cost of ownership. Official testing indicates that the AMMPS 
fleet of generators ranging from 5--60 kW is approximately 21 percent 
more fuel efficient than existing TQGs. The fielding of AMMPS is 
projected to save the Army more than 50 million gallons of fuel 
annually, although fuel expenditures for military operations depend on 
many factors, including OPTEMPO. By focusing their efforts on solutions 
that reduce fuel usage on the battlefield the Army also addresses two 
problems: shrinking the amount of fuel the Army uses overall, and 
reducing the cost in lives, resources, and diverted combat forces for 
convoy protection as threats proliferate.
                                 ______
                                 
               Questions Submitted to Dr. Daniel Y. Chiu
            Questions Submitted by Senator Richard J. Durbin
    Question. The U.S. is heavily invested in the Middle East and North 
Africa because of the important security relationships with our 
friends, but also because our adversaries could easily threaten the 
world's energy supply.
    If our energy supplies come from more diverse sources, should that 
change how we deal with adversaries in the region?
    Answer. The United States has an interest in and remains committed 
to ensuring the free flow of energy around the world, even as we reduce 
our dependence on imported oil. The global nature of the oil market 
means that disruptions to any major source of oil supply affects the 
price of oil in all corners of the world, including at home. Since the 
Middle East and North Africa are the largest producing regions in the 
world, accounting for one third of the world's oil production, 
disruption in these regions could have economic reverberations around 
the globe. Therefore, the United States should remain prepared to use 
all elements of our power, including military force, to secure our core 
interests in the region if necessary.
    Question. Last year Admiral Locklear stated that, in his judgment 
as the head of Pacific Command, climate change was the number one risk 
in the Asia-Pacific. He said he tells each of his new officers assigned 
the Pacific that they may be involved in a conflict but they are 
assured to be involved in a major disaster relief operation or its 
effects. The Military Advisory Board reinforces this, noting that 15 of 
20 largest urban areas in the world are near the coast, and most of 
these are located in Asia.
    What will the risk posed by climate change mean for the Asia-
Pacific?
    Answer. As Admiral Locklear said in reference to his area of 
responsibility in the Pacific Command, significant upheaval related to 
the impacts of climate change ``is probably the most likely thing that 
is going to happen . . . that will cripple the security environment, 
probably more likely than the other scenarios we all often talk 
about.'' Climate change effects have the potential to impact parts of 
the Asia-Pacific region in various ways. As we have seen, sea-level 
rise and increased storm surge could make many of the low-lying coastal 
areas vulnerable to flooding. Low-lying islands in the region are 
particularly threatened by sea-level rise and could become completely 
uninhabitable in the coming decades. More broadly, areas that become 
uninhabitable could produce mass displacement of populations and 
destabilizing migration to other regions and other countries. 
Increasing speed of glacier melt in the region could exacerbate water 
resource stresses and competition. Water scarcity combined with 
changing temperatures could damage agriculture productivity and 
accelerate instability. Increased incidents of extreme weather could 
lead to heightened demand for humanitarian assistance and disaster 
relief, as well as undermine the legitimacy of governments that are 
unable to respond effectively to these disasters. These effects are 
threat multipliers that can aggravate stressors abroad such as poverty, 
environmental degradation, political instability, and social tensions--
conditions that may enable terrorist activity and other forms of 
violence.
    Question. How are you working to ensure that Pacific Command--and 
every other Combatant Commander around the world--is factoring this 
thinking into their planning, and has the resources to back it up?
    Answer. The Quadrennial Defense Review serves as the Department's 
primary guidance to the Combatant Commanders to consider the impacts of 
climate change in their areas of responsibility. Furthermore, the 
Office of the Secretary of Defense works closely with Combatant 
Commanders to ensure they have the resources, including forward 
stationed forces and prepositioned material, to respond to natural 
disasters. Examples include the ability of U.S. forces to respond to 
the 2011 Tohoku earthquake and tsunami in Japan and to Typhoon Haiyan 
late last year in the Philippines. Assisting Allies and partners by 
responding with humanitarian assistance and disaster relief is an 
important element of our mission to build security globally. The 
Department is also assisting partner nations in developing their 
capabilities and capacity to respond to disasters internally and along 
their borders.
    Question.As I noted in my opening statement, a 2008 National 
Intelligence Council found that more than 30 U.S. military 
installations were already facing elevated levels of risk from rising 
sea levels. The Military Advisory Board report has a startling image of 
the potential risk in sea level at Norfolk Naval Base. We can all quite 
easily picture other bases which are critical to our military's ability 
to operate around the world--Diego Garcia, for example--which may also 
be threatened by these changes. With more than 5,000 military bases 
worldwide, it is no small task to assess, let alone mitigate, these 
risks.
    Has DOD begun a comprehensive review of military installations? How 
is the Department getting ahead of these risks?
    Answer. The impacts of climate change are specific to individual 
sites. Led by OSD-AT&L (Installations and Environment), DOD initiated a 
baseline survey in 2013 of all sites to identify sites that are 
currently affected by impacts usually associated with a changing 
climate (flooding due to storm surge; flooding due to precipitation, 
i.e., rain, snow, ice, etc.; extreme temperatures; wind; drought; and 
wildfires). The survey also gathers data on current mean sea level and 
potential site impacts from increases in mean sea level for those sites 
located with two kilometers of a coast or tidal body of water. The 
survey is continuing through 2014 and the data will be used by the 
military services to identify sites on which they need to do additional 
assessment. Vulnerability to climate change is not determined at a 
single point in time, but must be considered over an extended period 
and the risk managed appropriately. We have reviewed our planning 
processes and are incorporating the consideration of climate change 
impacts in our risk management frameworks. Managing the risk associated 
with a changing climate is just one additional component of assuring 
military mission readiness.
    Question. Dr. Chiu, General Lewis, it is clear that coordinating 
policy regarding climate requires cooperation among many agencies and 
countries.
    How does DOD view its role in this process, and how is the overall 
process working?
    Answer. DOD participates in multiple interagency working groups 
that discuss climate change. These include the formally chartered 
working groups under Executive Order 13653, as well as informal groups 
such as the NASA coordinated Interagency Forum on Climate Change 
Impacts and Adaptations. The working groups provide a venue for 
agencies to share best practices and to identify topics where 
additional information is needed, as well as provide valuable 
communication channels to ensure that agencies working in the same 
region or area are aware of on-going efforts and eliminating 
redundancies. This structure allows the agencies that conduct and fund 
scientific research to see where additional research may be needed and 
enables all the agencies to benefit from methodologies that have worked 
for others. The process works quite well and DOD has benefited from our 
interactions with the other Federal agencies.
    Question. How are other countries approaching climate change as a 
national security issue?
    Answer. There is a wide range of ways in which other countries 
approach climate change as a national security issue. Governments and 
militaries around the world have identified climate change as a threat 
to their security. Many have addressed this threat in their defense and 
national security planning documents. Some have established climate 
change offices in their defense ministries, while others are just 
beginning to explore how to approach this issue. For some countries, 
climate change is a near-term existential threat, such as the concern 
low-lying islands have with sea-level rise, and thus climate change is 
a top national security priority for them. For other countries, it is 
less of a priority. The Department of Defense continues work with 
Allies and partners to share best practices on climate change 
adaptation and planning.
    Question. Dr. Chiu, General Lewis, DOD planning regarding climate 
change has put a heavy focus on the Arctic.
    What other regions or specific climate effects may require a 
similar focus?
    Answer. Climate change impacts affect all regions of the world, 
with specific impacts such as sea-level rise, increased extreme 
weather, changing precipitation patterns, and rising global 
temperatures having differing effects depending on local conditions and 
dynamics. For example, loss of arable land and increased incidents of 
drought could accelerate instability in Africa. Increased incidents of 
extreme weather in Asia could challenge governments that are unable to 
respond effectively to these disasters. Europe could become a 
destination for refugees from [0]outside the Mediterranean region 
displaced by the effects of climate change. Increasing water scarcity 
in the Middle East could exacerbate existing tensions over resources. 
Rising sea levels could devastate island nations in the Pacific and 
Caribbean.
    The Department of Defense is looking at the impacts of climate 
change in all regions, adjusting our activities in the region 
accordingly, and working with Allies and partners to protect mutual 
interests.
    Question. Dr. Chiu, General Lewis, while the Navy's 2014 Arctic 
Roadmap estimates that we have the resources in place over the short-
term (through 2020) to accomplish our objectives in the region, it also 
emphasizes that we must be prepared for changes in the Arctic to 
accelerate.
    If your far-term estimates, starting in 2030, are accelerated by a 
decade, is it possible that we will need to consider an Arctic Pivot, 
as we are now doing in the Pacific?
    Answer. Given the low potential for armed conflict in the region, a 
building up beyond what is required for existing DOD missions could 
send the wrong signal about our intentions for the region. The U.S. 
Government, including DOD, must account for and closely monitor the 
long-term dynamics in the Arctic. We will continue to train and operate 
routinely in the region as we monitor the changing environment, revisit 
threat assessments, and take appropriate action as conditions change. 
Regardless of the rate and scale of change, we must be ready to 
contribute to national efforts in pursuit of strategic objectives in 
the region. The DOD Arctic Strategy, which Secretary Hagel issued in 
November 2013, in support of the President's May 2013 National Strategy 
for the Arctic region, will enable us to take a balanced approach to 
improving security in the region. Our challenge is to balance the risk 
of having inadequate capabilities or insufficient capacity appropriate 
for this changing region with the opportunity cost of making premature 
and/or unnecessary investments. We assess that the Arctic is a 
relatively low threat environment, and that existing DOD infrastructure 
and capabilities in the region are adequate to meet current U.S. 
defense needs in the near and mid-term future. Capabilities and 
requirements will need to re-evaluated as conditions and regional 
activity change, and any gaps will need to be addressed.
                                 ______
                                 
             Question Submitted by Senator Mary L. Landrieu
    Question. Access to water is critical for companies that provide 
electricity to our most important military installations.
    As water resources become more precious can you provide an update 
on the impact of water resources on national security?
    Answer. The February 2012 Intelligence Community Assessment on 
Global Water Security remains the seminal document on water resources 
and national security. Water is critical to life itself and neither DOD 
nor our surrounding communities can function without adequate fresh 
water. Some DOD installations are located in areas where water 
resources are limited and we have programs in place to reduce our water 
intensity. Our progress toward meeting annual water intensity reduction 
goals is provided each year in our Strategic Sustainability Performance 
Plan. DOD is actively engaged in monitoring water needs and usage and 
has reduced our water intensity by 19.8 percent (fiscal year 2013) 
since the baseline of fiscal year 2007.
                                 ______
                                 
         Questions Submitted to Brigadier General Kenneth Lewis
            Questions Submitted by Senator Richard J. Durbin
    Question. Last year Admiral Locklear stated that, in his judgment 
as the head of Pacific Command, climate change was the number one risk 
in the Asia-Pacific. He said he tells each of his new officers assigned 
the Pacific that they may be involved in a conflict but they are 
assured to be involved in a major disaster relief operation or its 
effects. The Military Advisory Board reinforces this, noting that 15 of 
20 largest urban areas in the world are near the coast, and most of 
these are located in Asia.
    What will the risk posed by climate change mean for the Asia-
Pacific?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. How are you working to ensure that Pacific Command--and 
every other Combatant Commander around the world--is factoring this 
thinking into their planning, and has the resources to back it up?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. As I noted in my opening statement, a 2008 National 
Intelligence Council found that more than 30 U.S. military 
installations were already facing elevated levels of risk from rising 
sea levels. The Military Advisory Board report has a startling image of 
the potential risk in sea level at Norfolk Naval Base. We can all quite 
easily picture other bases which are critical to our military's ability 
to operate around the world--Diego Garcia, for example--which may also 
be threatened by these changes. With more than 5,000 military bases 
worldwide, it is no small task to assess, let alone mitigate, these 
risks.
    Has DOD begun a comprehensive review of military installations? How 
is the Department getting ahead of these risks?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. Dr. Chiu, General Lewis, it is clear that coordinating 
policy regarding climate requires cooperation among many agencies and 
countries.
    How does DOD view its role in this process, and how is the overall 
process working?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. How are other countries approaching climate change as a 
national security issue?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. Dr. Chiu, General Lewis, DOD planning regarding climate 
change has put a heavy focus on the Arctic.
    What other regions or specific climate effects may require a 
similar focus?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. Dr. Chiu, General Lewis, while the Navy's 2014 Arctic 
Roadmap estimates that we have the resources in place over the short-
term (through 2020) to accomplish our objectives in the region, it also 
emphasizes that we must be prepared for changes in the Arctic to 
accelerate.
    If your far-term estimates, starting in 2030, are accelerated by a 
decade, is it possible that we will need to consider an Arctic Pivot, 
as we are now doing in the Pacific?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
    Question. The U.S. is heavily invested in the Middle East and North 
Africa because of the important security relationships with our 
friends, but also because our adversaries could easily threaten the 
world's energy supply.
    If our energy supplies come from more diverse sources, should that 
change how we deal with adversaries in the region?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.
                                 ______
                                 
             Question Submitted by Senator Mary L. Landrieu
    Question. Access to water is critical for companies that provide 
electricity to our most important military installations.
    As water resources become more precious can you provide an update 
on the impact of water resources on national security?
    Answer. I defer to Deputy Assistant Secretary of Defense Daniel 
Chiu to provide the Department of Defense's position on this issue.

                          SUBCOMMITTEE RECESS

    Senator Durbin. Thank you. Interesting panel. Interesting 
discussion for the subcommittee. We appreciate it very much.
    We stand adjourned.
    [Whereupon, at 11:21 a.m., Wednesday, May 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
